AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S
       LANGUAGE SERVICES CONTRACT WITH
             SOS INTERNATIONAL, LTD.
       CONTRACT NUMBER DJDEA-05-C-0020
              DALLAS FIELD DIVISION




            U.S. Department of Justice
          Office of the Inspector General
                      Audit Division


           Audit Report GR-60-12-004
                 February 2012
 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S
        LANGUAGE SERVICES CONTRACT WITH
              SOS INTERNATIONAL, LTD.
           CONTRACT NO. DJDEA-05-C-0020
               DALLAS FIELD DIVISION

                             EXECUTIVE SUMMARY


       The ability to translate, understand, and document conversations
conducted in languages other than English is an important factor in the
success of the Drug Enforcement Administration’s (DEA) law enforcement
activities. One method the DEA has used to accomplish this is to contract
for linguistic services, including monitoring, translating, and transcribing
recordings obtained from consensual and non-consensual (Title III)
telephonic intercepts, listening devices, and other media. 1

      The linguistic services contracts awarded by the DEA are a type of
indefinite delivery-indefinite quantity (ID/IQ) contracts with fixed hourly
rates administered by individual task orders. This type of contract is used to
acquire services when the exact times or exact quantities of future deliveries
are not known at the time of the contract award. The awarded contract
provides for the issuance of task orders to contractors for the performance
of required services that are identified during the period of the contract.

       As of September 23, 2010, the DEA reported there were seven
linguistic services contracts with a total value of $277.9 million. 2 For this
audit, we selected contract number DJDEA-05-C-0020. The contract was
awarded to SOS International, Ltd. (SOSi) beginning May 1, 2005, for
language related services to support the DEA Dallas Field Division. The




       1
           The Wiretap Act, 18 U.S.C. §§ 2510-2522, regulates the collection of actual
content of wire and electronic communications. The Wiretap Act was first passed as Title III
of the Omnibus Crime Control and Safe Streets Act of 1968 and is generally known as
"Title III". Title III wire taps are “court ordered nonconsensual intercepts.”
       2
         The information on overall dollar values was provided by DEA headquarters on
September 23, 2010. However, in reviewing the contract file, we found the Dallas contract
value had increased to $24,139,574, based on modification number 12, May 7, 2009. This
increases the total value of all contracts to $278,246,897.
contract consisted of a 1-year base period and four 1-year option periods. 3
We selected the SOSi contract with the Dallas Field Division based on risks
identified from prior audit work.

OIG Audit Approach

       This Office of the Inspector General (OIG) audit reviewed SOSi’s
performance and the DEA’s administration of the ID/IQ contract with fixed
hourly rates for linguistic services provided to the DEA Dallas Field Division
during the period of May 1, 2005, through October 31, 2010. The objectives
of the audit were to: (1) determine whether SOSi provided goods and
services in accordance with the contract and government requirements;
(2) determine whether costs billed under the contract were accurate; and
(3) assess the adequacy of the DEA's procedures for monitoring SOSi's
billings and performance.

       We conducted our audit work at the DEA Office of Acquisition
Management, the Dallas Field Division, and in SOSi’s operations offices in
Reston, Virginia. We interviewed acquisition, administration, and operations
staff from the DEA and SOSi. We reviewed documentation of linguists’
qualifications and security access, reported hours of performance, SOSi
billings, and quality control activities.

      We performed sample testing of SOSi’s compliance with critical
contract requirements regarding language proficiency, timeliness and hours
of performance requirements, and billing. We also reviewed the DEA’s
contract administration and monitoring activities related to these contract
requirements. Finally, we reviewed SOSi’s Quality Control Plan and the
DEA’s monitoring of activities related to SOSi’s implementation of the Quality
Control Plan.

Results in Brief

      We were able to determine the invoices we tested were accurate due
to consistent and reliable reports of linguist’s hours worked as maintained by
the Contracting Officer’s Technical Representative (COTR) and the SOSi Site
Supervisor. However, we found that: the DEA needs to improve the
monitoring of the contract; SOSi linguists were sometimes assigned to the
contract without adequate documentation of their qualifications; approvals

      3
         Modification No. 13 of Contract DJDEA-05-C-0020 extended the end date 6 months
beyond the original end date from April 30, 2010, to October 31, 2010. The total duration
of the contract was 5 years and 6 months.




                                            ii
for access to DEA Sensitive information were missing or had expired; and
the COTR needed to improve delegated contract administration. Further, we
concluded the DEA Office of Acquisition Management Contracting Officer also
needs to improve the oversight of the COTR’s administration of the contract.
The remaining sections of this Executive Summary provide further details
and descriptions of our most significant audit findings.

Contractor Compliance with Contract Requirements

       To test the contractor’s compliance with key requirements of the
contract, we judgmentally selected 13 items we believe present the greatest
risk to noncompliance with laws, regulations, and guidelines, and would
provide fair insight into the contractor’s overall compliance with contract
requirements. We concluded that the contractor failed to fully comply with 4
of the 13 contract requirements, and the DEA did not adequately monitor
the contractor to ensure performance of all contract requirements. These
findings are discussed in detail below.

Administrative and Financial Performance

       To evaluate SOSi’s compliance with the billing rates and hours worked,
we judgmentally selected and tested a sample of three task orders from
each of the performance periods (base period plus four option periods)
totaling 15 task orders. The task orders varied in the quantities of invoices
associated with them, from as few as 1 to over a dozen, with well over
100 invoices in the 15 task orders tested.

       We determined through our review that for the selected task orders
the time and attendance records were correct for the performance periods
covered by the invoices, and the invoices accurately listed hours worked,
billing rates, and total charges. There were no discrepancies in any of the
invoices tested.

Monthly Administrative Reports

       The government requires contractors to produce Monthly
Administrative Reports, even if there are no active task orders, which are to
include at a minimum: (1) a financial statement, (2) personnel status,
(3) security packages information, and (4) miscellaneous comments. We
obtained all of the Monthly Administrative Reports available in the contract
file and we found that only the first 5 required reports had been submitted
out of an expected 66 over the 5.5 years of the contract. Three of the five
reports submitted covered periods greater than 1 month ranging from 34 to
49 days.


                                      iii
     Both the COTR and the SOSi Site Supervisor stated that the Monthly
Administrative Reports were discontinued at the request of the COTR
because they were redundant with daily and weekly discussions with the
SOSi Site Supervisor. SOSi management also stated that they no longer
produced the reports because the DEA no longer requested this information.

       By failing to produce or provide Monthly Administrative Reports, SOSi
has not complied with one of the terms of the contract, and historical
information concerning the performance of the contractor was not recorded
and is therefore not available for future reference. The COTR did not
effectively monitor this requirement of the contract by not ensuring the
reports were completed and maintained in the contract file. Furthermore,
both the contractor and the COTR did not comply with documented
procedures for modification of the contract since it was not approved by the
Contracting Officer. We did not find any evidence that the Contracting
Officer was aware the reports had been discontinued.

Language Proficiency Certifications

       To evaluate SOSi’s compliance with the language proficiency
requirements established by the contract, we requested proof of language
proficiency testing of all linguists who were assigned to the contract. Upon
review of the language proficiency certificates we determined that
33.3 percent of the linguists worked after their certifications had exceeded
the 5-year time limit established by the contract. As a result, SOSi billed the
DEA for approximately $750,304 for linguists without valid language
certifications. Additionally, we were unable to locate any supporting
documentation for one individual for which SOSi billed the DEA
approximately $183,840.

       The total hours worked after certification expiration or without
certification resulted in a total cost to the DEA of approximately $934,144.
Therefore, we are questioning $934,144 for hours billed for linguists who
worked without current language certification.

Contractor Compliance with Quality Control Plan Requirements

       To assure adequate quality control, and to assure reliability and
effective contract performance, the contract requires the contractor to
provide a Quality Control Plan that is incorporated into the contract. We
found that SOSi failed to comply with 7 of 12 Quality Control Plan
requirements that we evaluated. For example, SOSi failed to: (1) hold and



                                      iv
document regular meetings with the COTR, and (2) perform worksite
inspections.

Regular Meetings Between SOSi and the COTR

      According to the SOSi Quality Control Plan, the Site Supervisor is
expected to meet regularly with the COTR to discuss issues, obstacles, and
problems. Additionally, Performance Evaluation Meetings are required at
least every 6 months during the contract performance period. The
contractor is required to prepare written meeting minutes of all Performance
Evaluation Meetings, to be signed by the COTR. Both the COTR and the Site
Supervisor stated they met daily, weekly, and any other time as deemed
necessary; however, there were no meeting minutes or other records of the
discussions or meetings. Therefore, the contractor and the COTR violated
the terms of the contract by not maintaining records of those meetings. As
a result, historical information concerning discussions, decisions, and other
issues was not recorded and therefore is not available for future reference.

Contractor Worksite Inspections

       At least once every 3-6 months, at unscheduled intervals, SOSi was to
send a three-member inspection team to each worksite to review work
produced by the SOSi contract management and administrative staff. The
inspections were generally expected to be completed in 1 week, but would
last as long as necessary. SOSi management stated it was a management
decision to not complete these inspections.

      SOSi benefitted financially by avoiding the cost of sending an
inspection team to Dallas, Texas. With a three-member team, SOSi saved
an average of approximately $1,500 per person per inspection. The total
amount that SOSi saved by not performing the required inspections is
estimated to be at least $45,000 ($1,500 x 3 persons x 10 trips). Since the
contract bid would necessarily factor in the cost of these inspections, we
believe SOSi should reduce the cost of the contract and reimburse the DEA
for the $45,000 avoided.




                                      v
Monitoring Contractor Performance

Contracting Officer Monitoring of COTR, Contract, and Contractor

      According to the Federal Acquisition Regulation, Subpart 1.6; 1.602-2,
the Contracting Officer is responsible for ensuring compliance with the terms
of the contract. The Contracting Officer may appoint individuals selected by
program offices to act as authorized representatives in the monitoring and
administration of a contract. Such officials shall be designated as
Contracting Officer’s Technical Representatives (COTR's).

      Based on the requirements as stated in the Acquisition Workforce
Management Program, and the noncompliance issues identified in the
following sections, we determined that the Contracting Officer needs to
maintain a more significant level of communication with the COTR in
overseeing the administration of the contract and the contractor.

COTR Responsibilities

      To assign a COTR to a contract, the Office of Acquisition Management
Contracting Officer issues a memorandum of Delegation of Contracting
Officer’s Technical Representative. The memorandum provides a detailed
description of the COTR’s authority and responsibilities and is signed by the
COTR.

       In this instance, the COTR had two primary functions: (1) ensure
compliance with the terms and conditions of the contract by monitoring the
activities of the contractor, and (2) ensure invoices were complete and
accurate by verifying hours worked, pay rates applied, and total charges to
ensure the government received the services for which it contracted. The
administrative duties associated with compliance to the contract include
attending meetings, reviewing reports, verifying security clearances,
verifying linguistic language certifications, reviewing performance
evaluations, and documenting communications with the contractor and
Contracting Officer.

      As a result of the contractor not fully performing the requirements of
the contract and Quality Control Plan as discussed previously, we
determined that the COTR needs to improve monitoring and control over the
contract. However, as mentioned previously, we determined the time and
attendance records were correct and the invoices accurately listed hours
worked, billing rates, and total charges. Also, we determined through our
interviews with DEA Dallas Field Division officials and Special Agents that the



                                      vi
DEA was satisfied with SOSi personnel and did not have any concerns
regarding SOSi’s performance under the contract.

Semiannual Contractor Performance Reports

       Based on the length of the contract (5.5 years), we calculated that the
COTR should have processed 11 semiannual Contractor Performance
Reports. We reviewed the contract file at the DEA headquarters, and found
six contractor performance reports. The first two were submitted within 1
month of the end of the respective reporting period, but those contractor
performance reports that followed were excessively late or not found. The
last contractor performance report submitted was for a 1-year period rather
than a 6-month period, and was nearly 1 year late.

       The COTR stated that to complete a semiannual performance review
on the National Institute of Health’s Contractor Performance System, you
must be “invited” to the system by the Contract Specialist located at DEA
Headquarters, and notified that the performance review will need to be
accomplished. However, the contract specifically states that if unable to
access the electronic system, the Contractor Performance Report form is
located in Section J of the contract as attachment J-A-1. The six reports
that were submitted were for periods where the COTR was invited to
complete a performance report. As a result of the COTR failing to comply
with the contract in regard to submitting semiannual contractor reports,
historical information concerning the performance of the contractor was not
recorded and is therefore not available for future reference.

Performance Evaluation Meetings

      The COTR was required to hold performance evaluation meetings with
the contractor at least once every 6 months, or more often if the COTR or
contractor requested, to discuss problems that arose during the contract
performance and to discuss the performance of the contract employees.
These performance evaluation meetings were to be held weekly during the
contract initiation period. Additionally, the contractor was responsible for
preparing minutes of these meetings, and the COTR was required to approve
the minutes. The COTR was required to maintain a file of all correspondence
between the COTR and the Contracting Officer and contractor, including
memoranda for the record of any unwritten actions or decisions. This file is
considered a segment of the official contract file.

      According to the COTR, there were no performance evaluation
meetings held because they communicate daily and weekly and resolve any
issues or problems as they occur, so there is no need for a 6-month


                                      vii
meeting. Since there were no meetings, there were no minutes of
performance evaluation meetings. Furthermore, there were no meeting
minutes or other documentation of communications or decisions for any
meetings. As a result, the COTR failed to meet the terms of the contract
concerning holding of performance evaluation meetings, and failed to carry
out the responsibilities of documenting actions and decisions as outlined in
the Memorandum of Delegation of COTR.

Contractor Quality Control Plan

      SOSi was required under the terms and conditions of the contract to
develop a Quality Control Plan that established and maintained well
documented quality control procedures that ensured the production and
deliverance of acceptable performance and materials.

      We reviewed the contract file but the Quality Control Plan was not
included and the COTR was unaware it existed. Upon request, the SOSi Site
Supervisor produced a copy of the Quality Control Plan for the COTR and the
OIG. Since the COTR had not previously seen a copy of the Quality Control
Plan, we concluded the COTR had never read or studied its contents, and
therefore could not have enforced it.

      As a component of our evaluation of the DEA’s and SOSi’s quality
control monitoring activities, we reviewed SOSi’s Quality Control Plan and
determined that the plan met requirements established by the contract, and
provides the procedures to effectively monitor and control performance.
SOSi’s compliance with the requirements of the Quality Control Plan are
discussed in detail in section Contractor Compliance With Quality Control
Plan Requirements.

Security Background Investigations

Approval for Access to DEA Sensitive Information

       The DEA is responsible for conducting a background investigation on
all contractor personnel assigned to the contract, and contractor personnel
must be approved in writing by the DEA Office of Security Programs for
access to DEA Sensitive information. An employee cannot be assigned to
perform services for the DEA until the contractor has been notified in writing
by the COTR that the individual has been approved by the DEA Office of
Security Programs.

Of the linguists tested there were 22 instances involving 20 of the linguists
in which personnel worked without approved access to DEA Sensitive


                                      viii
information. Additionally, of the 51 access approval forms received, 17
(33.3 percent) were missing signatures or other information. Based on this
information, we have determined that the DEA violated its own security
procedures as documented in the contract and DEA policy DEA-
2852.204.84. 4 As a result, the DEA security could be improved through
contractor compliance with this requirement.

Security Background Investigation Updates

       The contract provides extensive information on the requirements for
background investigations prior to access to DEA Sensitive information.
However, the only information we could find in the contract on updates or
reinvestigations of background information concerned changes in marital
status. The contractor is responsible for notifying the COTR in writing prior
to, or immediately thereafter, if a contractor employee has a change in
marital status. According to SOSi management, these updates were not
done, and the reason provided was that the DEA did not specifically request
them. As a result, the DEA security could be improved through contractor
compliance with this requirement.

Continuous Learning Points

      According to the Acquisition Workforce Management Program,
acquisition professionals are required to earn continuous learning points to
maintain their certification. All Contracting Officer‘s, regardless of GS series,
warranted above the micro purchase threshold are required to earn
80 continuous learning points of skills currency training every 2 years to
maintain FAC-C. The DEA provided training records for the Contracting
Officer for this contract, and according to the records, the continuous
learning points requirements were met.

       To maintain a FAC-COTR certification, certified professionals are
required to earn 40 continuous learning points of skills currency training
every 2 years beginning the first fiscal year following the effective date of
certification. We requested records from the DEA to support the COTR’s
completion of the continuous learning points requirements, but none were
provided. Therefore we concluded that the COTR did not acquire the
required continuous learning points.



      4
        DEA-2852.204.84 PUBLIC TRUST POSITIONS – SECURITY REQUIREMENTS FOR
ACCESS TO DEA SENSITIVE INFORMATION/U.S. CITIZENSHIP OR PERMANENT RESIDENT
ALIEN STATUS REQUIRED, August 2010.



                                       ix
Conclusion and Recommendations

       Through our testing and evaluation, we concluded that many of the
requirements of Contract DJDEA-05-C-0020 and the Quality Control Plan
were not fully accomplished. Failure to meet these requirements may create
a risk to the DEA of fraud, waste, and abuse. Fortunately, the COTR
maintained exceptional records of time and attendance. As a result, we
were able to verify the number of hours worked by SOSi employees, verify
hourly billing rates, and confirm the accuracy of invoices. There were no
dollar related discrepancies in any of the invoices tested. We also concluded
that the contract goals were achieved and the expenditures tested were in
accordance with the contract. However, many requirements of the contract
were not completed and the DEA Dallas Field Division did not adequately
monitor the contract and contractor.

       Significant findings include the following: (1) SOSi failed to prepare
and submit Monthly Administrative Reports, (2) language proficiency
certifications were not always provided or were sometimes expired,
(3) regular meetings with the COTR and SOSi were not documented,
(4) contractor site visits were not performed, (5) semiannual contractor
performance reports were not submitted, (6) authorizations to access DEA
Sensitive information were missing or expired, (7) contractor performance
evaluation meetings were not held, and (8) modifications to the
requirements of the contract were not approved by the Contracting Officer.

   Due to these concerns, we make 10 recommendations to assist the DEA
in monitoring contractor compliance with the terms and conditions of the
contract and ensuring the efficiency and effectiveness of the contract. For
example, we recommend that the DEA:

   1.   Implement procedures to ensure requirements for periodic
        background reinvestigation are tracked and accomplished timely, and
        approvals for access to DEA Sensitive information are completed and
        current, and files are maintained.

   2.   Implement procedures to ensure linguists have been properly
        certified, that certifications are kept current, and only certified
        linguists work under the contract.

   3.   Ensure that for future contracts, the contractor’s Quality Control Plan
        is included in the contract file and disseminated to appropriate
        personnel, the plan requirements are periodically reviewed and
        updated, and the plan requirements are accomplished by the
        contractor.


                                         x
4.   Implement procedures to ensure Monthly Administrative Reports and
     Semiannual Contractor Performance Reports are completed,
     submitted timely, and maintained in the contract file.

5.   Implement procedures to ensure the COTR meets the Department of
     Justice’s requirements for continuous learning points.

6.   Implement procedures to ensure the Contracting Officer fully
     monitors the activities of the COTR, contract administration, and
     contractor performance and the COTR monitors all aspects of
     contract performance and all contractor activities, and reports
     regularly to the Contracting Officer.

7.   Implement procedures to ensure modifications to the contract are
     properly documented, authorized, and maintained in the contract file.




                                   xi
                                TABLE OF CONTENTS
INTRODUCTION ................................................................................ 1
          Background .............................................................................. 1
          Dallas Field Division Linguistic Services Contract ........................... 3
          Prior Audits and Reviews ............................................................ 4
          OIG Audit Approach................................................................... 5
FINDINGS AND RECOMMENDATIONS................................................ 7
      1. Contractor Compliance with Contract Preformance Requirements ..... 7
          Administrative and Financial Performance .................................... 8
          Monthly Administrative Reports .................................................. 9
          Language Proficiency ............................................................... 10
          Contractor Quality Control Plan ................................................. 12
          Invoice Requirements .............................................................. 13
          Security Background Investigation Updates ................................ 13
      2. Contractor Compliance with Quality Control Plan Requirements ..... 14
          Security Background Investigation Updates ................................ 15
          Semiannual Linguist Performance Reviews ................................. 15
          Monthly Administrative Reports ................................................ 16
          Meetings Between SOSi and COTR ............................................ 16
          Weekly Reports on Error Rates ................................................. 16
          Acceptable Quality Levels ......................................................... 17
          Contractor Site Visits ............................................................... 17
      3. Monitoring of Contractor Performance ........................................ 19
          Contracting Officer Monitoring of COTR ...................................... 19
          COTR Monitoring of the Contract and Contractor ......................... 20
          Contractor Meetings and Records of Meetings ............................. 22
          Semiannual Contractor Performance Reports .............................. 22
          Performance Evaluation Meetings .............................................. 24
          Contractor Quality Control Plan ................................................. 25
          Security Background Investigations ........................................... 25
          Modifications to the Contract .................................................... 28
          Continuous Learning Points ...................................................... 28
          DEA Contract Administration Plan .............................................. 29
OVERALL CONCLUSIONS ................................................................. 30
         Recommendations ................................................................... 31
APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 33
APPENDIX II: SCHEDULE OF DOLLAR RELATED FINDINGS ............. 35
APPENDIX III: DEA Response to the Draft Report .......................... 36
APPENDIX IV: SOSi Response to the Draft Report .......................... 42
APPENDIX V: OIG COMMENTS ON SOSi’s RESPONSE TO THE DRAFT
             REPORT ................................................................... 47
APPENDIX VI: ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
             TO CLOSE REPORT ................................................... 50
 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S
        LANGUAGE SERVICES CONTRACT WITH
              SOS INTERNATIONAL, LTD.
         CONTRACT NUMBER DJDEA-05-C-0020
               DALLAS FIELD DIVISION

                                  INTRODUCTION


Background

      The mission of the Drug Enforcement Administration (DEA) is to
enforce the laws and regulations governing controlled substances and to
bring to the criminal and civil justice system those individuals and
organizations involved in the growing, manufacture, or distribution of
controlled substances appearing in or destined for illicit traffic in the United
States. While technology plays a major role in the DEA’s efforts, the ability
to translate, understand, and document conversations conducted in
languages other than English is an important factor in the success of the
DEA’s law enforcement activities. One method the DEA has used to
accomplish this is to contract for linguistic services, including monitoring,
translating, and transcribing recordings obtained from consensual and non-
consensual (Title III) telephonic intercepts, listening devices, and other
media. 1

      The linguistic services contracts awarded by the DEA are indefinite
delivery-indefinite quantity (ID/IQ) contracts with fixed hourly rates
administered by individual task orders. This type of contract is used to
acquire services when the exact times or exact quantities of future deliveries
are not known at the time of the contract award. The awarded contract
provides for the issuance of task orders to contractors for the performance
of required services that are identified during the period of the contract.




       1
           The Wiretap Act, 18 U.S.C. §§ 2510-2522 regulates the collection of actual content
of wire and electronic communications. The Wiretap Act was first passed as Title III of the
Omnibus Crime Control and Safe Streets Act of 1968 and is generally known as "Title III".
Title III wire taps are “court ordered nonconsensual intercepts”.
      As shown in Exhibit 1, as of September 23, 2010, the DEA reported
there were seven contracts with a total value of $277.9 million. 2 We
selected the SOS International, Ltd (SOSi) contract DJDEA-05-C-0020, which
began May 1, 2005, for language related services with the Dallas Field
Division based on risks identified from prior audit work.

Exhibit 1: Open DEA Linguistic Services Contracts as of
           September 23, 2010 3
     CONTRACT NUMBER                    LOCATION               OVERALL VALUE
DJDEA-05-C-0020                  Dallas                            $ 23,796,895
DJDEA-08-C-0047                  El Paso                              30,545,340
DJDEA-05-C-0021                  Houston                              24,400,024
DJDEA-05-C-0019                  New York                             89,438,860
DJDEA-06-C-0026                  San Francisco                        39,174,600
DJDEA-07-C-0019                  Seattle                              28,172,744
DJD-09-C-0036                    Los Angeles                          42,375,755
TOTAL                                                               $ 277,904,218
Source: Drug Enforcement Administration

      SOS International, Ltd. (SOSi) is a privately owned defense services
firm with over 1,200 employees worldwide. It provides a wide range of
analytical, training, and consulting services to the U.S. government and
private firms in the defense and aerospace industry. It specializes in
counterterrorism and counter-drug operations, including linguistic support to
U.S. government and commercial clients. The corporate headquarters is
located in New York, New York, and the operational headquarters is located
in Reston, Virginia.

      The DEA’s Office of Acquisition Management Contracting Officer
designated a Contracting Officer’s Technical Representative (COTR) in the
DEA Dallas Field Division to act on the Contracting Officer’s behalf in the
monitoring and administration of the contract. The COTR functions as the
“eyes and ears” of the Contracting Officer, actively overseeing the
performance of the contractor to assure contract requirements are met.
However, the COTR does not have the authority to make legal


      2
         The information on overall dollar values was provided by DEA headquarters on
September 23, 2010; however, in reviewing the contract file, we found the Dallas contract
value had increased to $24,139,574, based on modification number 12, May 7, 2009. This
increases the total value of all contracts to $278,246,897.
      3
          Differences in totals throughout the report are due to rounding (the sum of
individual numbers prior to rounding may differ from the sum of the individual numbers
rounded).




                                            2
interpretations of the contract, impose tasks that are not in the contract,
supervise contract employees, or waive contract requirements.

Dallas Field Division Linguistic Services Contract

      As previously noted, for this audit we selected contract number
DJDEA-05-C-0020 which began May 1, 2005, for language-related services
to support the DEA Dallas Field Division. The DEA Dallas Field Division has
one Contracting Officer who is authorized to approve task orders initiated by
the COTR under this contract.

      The contract established minimum and maximum dollar amounts and
hourly rates for linguistic services to be provided by SOSi for the base year
and four 1-year option periods. 4 The contract performance periods were
established by the contract as shown in Exhibit 2.

 Exhibit 2: DEA Linguistic Services Contract Periods of Performance
      CONTRACT YEAR                    PERIOD OF PERFORMANCE
    Base Year                             May 1, 2005 – April 30, 2006
    Option Year I                         May 1, 2006 – April 30, 2007
    Option Year II                        May 1, 2007 – April 30, 2008
    Option Year III                       May 1, 2008 – April 30, 2009
    Option Year IV                        May 1, 2009 – April 30, 2010
    6-month Extension                     May 1, 2010 – October 31, 2010
Source: Drug Enforcement Administration

       The contract identified more than 100 languages for which SOSi may
be required to provide qualified linguists. However, the invoices indicate the
Dallas Field Division’s primary need was for Spanish certified linguists. The
contract also stated that SOSi shall be prepared to provide intercept
activities 24 hours per day and 7 days per week. When the DEA determines
a requirement for a wiretap, the appropriate authorizing paperwork is
prepared, and upon approval, the COTR initiates a task order, which
obligates contract funds. The COTR coordinates with the contractor to
ensure the appropriate personnel are in place.



      4
         Modification No.13 of Contract DJDEA-05-C-0020 extended the end date 6 months
beyond the original end date from April 30, 2010, to October 31, 2010. The total duration
of the contract was 5 years and 6 months.




                                            3
       Exhibit 3 shows the total task orders and expenditures by period. The
DEA executed 235 task orders with a cumulative value exceeding $5.55
million.

  Exhibit 3. Task Order Expenditures by Period
                               EXECUTED TASK   TOTAL COST OF TASK
    PERIOD OF TASK ORDER          ORDERS             ORDERS
  Base Period                        37          $     730,964
  Option Period I                    40                821,531
  Option Period II                   37                764,322
  Option Period III                  51              1,180,199
  Option Period IV                   46              1,199,069
  Option IV Extension                24                856,332
  TOTALS                            235           $ 5,552,417
  Source: Drug Enforcement Administration

Prior Audits and Reviews

       We researched prior audits for both the contractor and DEA, but did
not find any previous reports on the contactor. We identified two Office of
the Inspector General (OIG) reports concerning linguist contracts between
other contractors and the DEA.

     The first report was released in August 2002, entitled The
Administration of Contracts and Agreements for Linguistic Services by the
Drug Enforcement Administration. The findings are summarized as follows:

  1. Contractors for linguistic services were not authorized by the contract
     or exceeded the contract amounts.
  2. Contractors were paid for linguistic services performed outside of the
     allowable performance period of the delivery orders.
  3. Contractors were paid for hours not supported by the attendance
     records.
  4. Contractors were paid for overtime that was either not authorized or
     not properly approved.
  5. Contracting Officer’s Technical Representative (COTRs) did not
     provide adequate oversight of the contracts.

       In summary, there was a need for stronger monitoring by the COTR
resulting in excessive charges, unsupported hours, and unauthorized
expenditures.




                                        4
      The second prior report was an audit of the DEA El Paso Field
Division’s linguistic services contract DJDEA-08-C-0047. The audit report
was released in December 2010 with the following findings:

      1.    Contractor submitted invoices for services outside contracted
            performance periods.
      2.    Contractor was unable to provide the required proficiency
            certifications for all linguists assigned to the contract.
      3.    Invoiced hours exceeded recorded hours worked.
      4.    The DEA Contracting Officer failed to effectively oversee the
            COTR’s performance of delegated administrative responsibilities.
      5.    The COTR was not monitoring contractor compliance with the
            established requirements of task orders and the contract.


       In summary, the Contracting Officer’s and the COTR’s failure to
properly monitor the contract resulted in excessive charges, unsupported
hours, unauthorized expenditures, and missing or expired certifications and
background checks. These are essentially repeat findings from the 2002
audit.

OIG Audit Approach

       We conducted this audit in response to the President’s call for federal
agencies to eliminate waste and maximize the value achieved from their
contracts by reviewing existing contracts to identify waste and
inefficiencies. 5 This OIG audit reviewed SOSi’s performance and the DEA’s
administration of the ID/IQ contract DJDEA-05-C-0020 for linguistic services
for the DEA Dallas Field Division during the period of May 1, 2005, through
October 31, 2010.

      The objectives of the audit were to: (1) determine whether SOSi
provided goods and services in accordance with the contract and
government requirements; (2) determine whether costs billed under the
contract were accurate; and (3) assess the adequacy of the DEA's
procedures for monitoring SOSi's billings and performance.

       We conducted our audit work in the DEA Office of Acquisition
Management and the Dallas Field Division offices and in SOSi’s operations
offices in Reston, Virginia. We interviewed acquisition, administration, and

      5
          Government Contracting Presidential Memoranda dated March 4, 2009.




                                           5
operations staff from the DEA and SOSi. We reviewed documentation of
linguist’s qualifications and security access, reported hours of performance,
SOSi billings, and quality control activities.

      We performed sample testing of SOSi’s compliance with critical
contract requirements regarding language proficiency, hours of performance
requirements, and billing. We also reviewed the DEA’s contract
administration and monitoring activities related to these contract
requirements. Finally, we reviewed SOSi’s Quality Control Plan and the
DEA’s monitoring of activities related to SOSi’s implementation of the Quality
Control Plan. See Appendix I for complete details of Objectives, Scope, and
Methodology.




                                      6
              FINDINGS AND RECOMMENDATIONS


     1. CONTRACTOR COMPLIANCE WITH CONTRACT
        PERFORMANCE REQUIREMENTS

     We determined the most critical aspects of the contract to test, and we
     found that SOSi was generally in compliance with the contract
     requirements including: an automated task order entry and tracking
     system, invoices submitted monthly, accurate time and attendance
     records, fully executed task orders, and accurate billings. However,
     we found that SOSi did not provide all the information required on
     invoices, language proficiency tests were sometimes missing or
     expired, the COTR had not reviewed the contractor’s Quality Control
     Plan, and Monthly Administrative Reports were not done. In our
     judgment, these items create an increased risk of noncompliance of
     contract requirements. Details of these discrepancies and selected
     items are provided in the following section.

      Contract Number DJDEA-05-C-0020, issued by the DEA Office of
Acquisition Management, contains service specifications, deliverables, time
constraints, and reporting requirements. To determine whether or not SOSi
provided goods and services in accordance with contract and government
requirements, we focused on SOSi’s financial performance including billing
and tracking of time and attendance, and contract requirements including
Monthly Administrative Reports, linguist language certifications, SOSi’s
submission and implementation of a Quality Control Plan, invoice content
requirements, and linguist status updates for access approval to DEA
Sensitive information.

       To test the contractor’s compliance with key requirements of the
contract, we judgmentally selected 13 items we believe present the greatest
risk in noncompliance with laws, regulations, and guidelines, and would
provide fair insight into the contractor’s overall compliance with contract
requirements. Exhibit 4 lists the contract requirements we reviewed and our
determination of compliance. Most of the items were evaluated by visual
inspection and observation in the course of testing other parameters.
However, items 2, 7, 12, and 13 were specifically tested using judgmental
samples as described in various sections throughout this report. Exhibit 4 is
a summary of the results of our observations and tests.




                                      7
Exhibit 4. Contractor Compliance with Contract Requirements
                                                                    COMPLIED
 ITEM                           REQUIREMENT                           WITH
   1   Government Holidays billable only if scheduled and worked       Yes
   2   Language proficiency testing within past 5 years                No
       Contractor will provide a Quality Control Plan (Exhibit J-E-
   3   4 of contract)                                                  Yes
       Contractor will use DEA's tape recording equipment (T2S2
   4   & JSI Voice Box Software)                                       Yes
       SOSi Site Supervisor will prepare and provide monthly
   5   personnel schedule to COTR                                      Yes
       SOSi Site Supervisor will maintain time and attendance
   6   records                                                         Yes
       Contractor to provide to COTR and Contracting Officer
   7   Monthly Administrative Report                                   No
       Performance Evaluation Meetings every 6 months with
   8   COTR and SOSi                                                   No
   9   Fully executed task orders required for all work by SOSi        Yes
  10   Task order shall contain all minimum relevant information       Yes
       Contractor shall furnish automated task order entry and         Yes
  11   tracking system
  12   Contractor will submit invoices monthly                         Yes
  13   Invoices will include items listed in contract and FAR          No
Source: Contract DJDEA-05-C-0020 and the Office of the Inspector General

      We concluded that the contractor failed to comply with 4 of the 13
contract requirements, and the DEA did not adequately monitor the
contractor to ensure performance of all contract requirements. The following
subsections provide additional explanations and details concerning
compliance with contract requirements.

Administrative and Financial Performance

       In accordance with the terms and conditions of the Dallas Field
Division’s linguistic services contract, SOSi is allowed 72 hours from the time
of receipt of an executed task order to provide the required number of
qualified linguists to perform the services required by the task order. The
contract also specifies the maximum number or hours and billing rates for
personnel with specific contract line item numbers (CLINs), which
differentiate between various personnel types, such as supervisors and
linguists.




                                           8
       To evaluate SOSi’s compliance with the billing rates and hours worked,
we judgmentally selected and tested a sample of three task orders from
each of the performance periods (base period plus four option periods)
totaling 15 task orders. The task orders vary in the quantities of associated
invoices from as few as 1 to over a dozen, with in excess of 100 invoices in
the 15 task orders tested.

       We determined through our review that for the selected task orders,
the time and attendance records were correct for the performance periods
covered by the invoice, and the invoices accurately listed hours worked,
billing rates, and total charges. There were no discrepancies in any of the
invoices tested.

Monthly Administrative Reports

       The government requires the contractor to produce Monthly
Administrative Reports, even if there are no active task orders, which are to
include as a minimum: (1) financial statement, (2) personnel status,
(3) security packages information, and (4) miscellaneous comments. We
obtained all of the Monthly Administrative Reports available in the contract
file, and as shown in Exhibit 5, we found that only the first 5 required
reports had been submitted out of an expected 66 over the 5.5 years of the
contract. We also found that three of the five reports exceeded the 1-month
reporting period ranging from 34 to 49 days.

        Exhibit 5. Monthly Administrative Reports Summary
              Contractor Monthly Administrative Reports
         Report                              Number of Days
          No.         Reporting Period         Reported On
           1          5/1/05 to 6/19/05            49
           2          6/20/05 to 7/17/05           27
           3          7/18/05 to 8/21/05           34
           4          8/18/05 to 9/30/05           43
           5          8/1/06 to 8/30/06            29
        Source: Office of the Inspector General

      We asked the COTR why the reports were missing and the COTR
indicated that they requested that the reports be discontinued because the
reports were redundant because they included daily and weekly discussions
with the SOSi Site Supervisor. We asked the SOSi Site Supervisor and the
Program Manager to confirm this information, and they both stated that this
was accurate. SOSi also stated that they no longer produced the report as a
result of it not being requested by the DEA.


                                           9
      By failing to produce or provide Monthly Administrative Reports, SOSi
has not complied with one of the terms of the contract, and historical
information concerning the performance of the contractor was not recorded
and is therefore not available for future reference. The Dallas Field Division
COTR did not effectively monitor the requirements of the contract by not
ensuring the reports were completed and maintained in the contract file.
Furthermore, both the contractor and the DEA violated documented
procedures for modification to the contract, which requires prior written
approval of the Contracting Officer. We did not identify any evidence that
the Contracting Officer was aware the reports had been discontinued.

Language Proficiency

      Testing for language proficiency in the source language and in English
for the four basic communication skills of listening, reading, writing, and
speaking is required by the contract for all levels of SOSi linguists. The
contract requires evidence of acceptable results in language proficiency
testing be submitted to the COTR for all linguists prior to assignment to a
DEA contract. In accordance with the terms and conditions of the contract,
the language proficiency testing shall have occurred no more than 5 years in
the past.

        To evaluate compliance with language certification requirements, we
requested SOSi management at the DEA Dallas Field Division to provide a
list of all individuals billed under contract DJDEA-05-C-0020. We were
provided a list of personnel, and requested certificates for all linguists.
However, when we received the certificates, the list of employees had been
revised by the SOSi Program Manager who stated that seven of those
employees did not work under contract DJDEA-05-C-0020, but had worked
under an earlier contract, and the names were provided to the OIG in error.
We then requested from the COTR a complete list of all employees billed
under the contract to ensure we had included all linguists. The list from the
COTR included seven additional personnel that had not been previously
included on either list provided by SOSi. The seven individuals were working
under the contract from SOSi’s Virginia office; therefore, the Site Supervisor
in the Dallas Field Division did not have those timesheets and did not include
them on the original list provided to the OIG. After further discussions with
SOSi management, they confirmed that the list of linguists provided by the
COTR was the correct and complete list.

      We requested SOSi’s Program Manager to provide evidence of timely
acceptable proficiency test results for all linguists assigned to the contract
during the period of May 1, 2005 through October 31, 2010. We determined


                                      10
that 33.3 percent of the linguists worked after their certifications had
exceeded the 5-year time limit established by the contract. As a result,
approximately $750,304 were billed to the DEA for hours worked by linguists
without valid language certifications.

Exhibit 6. Evaluation of Linguists Language Qualifications 6

  LINGUIST ID           DATE OF              PROFICIENCY           AMOUNT CHARGED
    NUMBER         PROFICIENCY TEST        EXPIRATION DATE           TO CONTRACT
       2               7/21/04                 7/21/09                   $ 119,127
       5               7/21/04                 7/21/09                      83,949
       6               7/21/04                 7/21/09                      68,966
      10               7/21/04                 7/21/09                      78,256
      11               7/21/04                 7/21/09                      65,607
      15               7/21/04                 7/21/09                      86,205
      19                3/7/05                  3/7/10                      45,258
      24                4/9/05                  4/9/10                       8,383
      26               3/15/05                 3/15/10                      39,595
      27               7/21/04                 7/21/09                      72,146
      29               1/10/05                 1/10/10                      49,597
      31               7/21/04                 7/21/09                      14,048
      37               1/27/05                 1/27/10                      19,166
 TOTALS                                                                  $ 750,304
Source: Office of the Inspector General, Drug Enforcement Administration, and SOS
International

       As illustrated in Exhibit 7, we also found one individual for which no
certification was provided. That individual worked under the contract and
the DEA was billed approximately $183,840. The hours covered three
different pay rates between April 2, 2007 and October 31, 2010.




      6
          Differences in totals throughout the report are due to rounding (the sum of
individual numbers prior to rounding may differ from the sum of the individual numbers
rounded).




                                           11
Exhibit 7. Linguist Without Language Certification
 LINGUIST ID                                                   AMOUNT CHARGED TO
   NUMBER          PERIODS WORKED FOR EACH PAY RATE                CONTRACT
                           4/2/07 to 5/26/08                          $ 78,284
        9                  5/27/08 to 5/5/09                              9,256
                          5/6/09 to 10/31/10                             96,300
TOTALS                                                               $ 183,840
Source: Office of the Inspector General, Drug Enforcement Administration, and SOS
International

      The hours worked after certification expiration or without certification
resulted in a cost to the DEA of approximately $934,144. Therefore, we are
questioning $934,144 for hours billed for linguists that worked without a
current language certification.

Contractor Quality Control Plan

      SOSi was required under the terms and conditions of the contract to
develop a Quality Control Plan that established and maintained well
documented quality control procedures that ensured the production and
deliverance of acceptable performance and materials. SOSi was solely
responsible for providing quality work and providing evidence that controls
were in place. The plan was required to be incorporated into the contract as
an attachment, and any changes to the Quality Control Plan had to be
approved by the Contracting Officer.

      We reviewed the contract file but the Quality Control Plan was not
included and the COTR was unaware it existed. Upon request, the SOSi Site
Supervisor produced a copy of the Quality Control Plan for the COTR and the
OIG.

       As a component of our evaluation of the DEA’s and SOSi’s quality
control monitoring activities, we reviewed SOSi’s Quality Control Plan and
determined that the plan met requirements established by the contract.
Specifically, we noted the plan identified the positions and job titles of
individuals assigned to inspect linguists’ work, included a method to identify
and correct any deficiencies that occur, described procedures to be used to
ensure the accuracy of transcripts and translations, and included a
description of procedures to review intercepted calls and ensure the
accuracy and completeness of the summaries of intercepted calls.

      Based on our review of the Quality Control Plan, we determined that
the plan met the requirements specified in the contract, and provided the



                                          12
procedures to effectively monitor and control performance. SOSi’s
compliance to the requirements of the Quality Control Plan is discussed in
detail in Section 2, Contractor Compliance With Quality Control Plan
Requirements.

Invoice Requirements

       The contract specified items that must be included in every invoice, in
addition to items required by the Federal Acquisition Regulation (FAR),
Subpart 52.2, 52.232-25. We did not find any significant discrepancies on
the invoices. However, we noted that the contract required the tax
identification number (TIN), and 5 of the 10 invoices reviewed did not
include the TIN. It may be appropriate to modify this requirement on future
contracts and find an alternative method of acquiring the TIN, such as on the
application or the award document.

Security Background Investigation Updates

      The contract requires that all personnel assigned to the contract must
be approved in writing for access to DEA Sensitive information. Additionally,
the DEA is responsible for conducting all background investigations on all
contractor personnel to be assigned to the contract. Also, the contractor is
responsible for notifying the COTR in writing prior to, or immediately
thereafter, if a contractor employee has a change in marital status.

      In discussions with SOSi management, we inquired whether or not the
required security updates were being accomplished. According to SOSi
management, these updates were not done, and the reason provided was
that the DEA did not specifically request them. In our judgment, it is
imperative that the contractor comply with all requirements of the contract
and the Quality Control Plan without specific prompting to minimize risk and
ensure quality, reliability, and efficiency in the performance of the contract.




                                      13
      2. CONTRACTOR COMPLIANCE WITH QUALITY CONTROL PLAN
         REQUIREMENTS

      To assure adequate quality control, and to promote reliability and
      effective contract performance, the contract DJDEA-05-C-0020
      requires the contractor to provide and implement a Quality Control
      Plan. We found that SOSi provided a Quality Control Plan, but did not
      comply with 7 of 12 Quality Control Plan requirements that were
      evaluated. Specifically, SOSi failed to: (1) provide security
      background updates, (2) complete semiannual employee performance
      reviews, (3) prepare and submit Monthly Administrative Reports,
      (4) hold and document regular meetings with the COTR, (5) provide
      Weekly Error Rate Reports, (6) report Acceptable Quality Levels
      (AQLs), and (7) perform worksite inspections. Overall, in our
      judgment, these items present the greatest risk to noncompliance with
      the Quality Control Plan and contract, which could potentially lead to
      fraud, waste, and abuse.

       SOSi was required under the terms and conditions of the contract to
develop and implement a Quality Control Plan that established and
maintained well documented quality control procedures that ensured the
production and deliverance of acceptable performance and materials. The
contract also provided the DEA the right to review and evaluate the
effectiveness of the established quality controls.

      To evaluate the DEA’s and SOSi’s quality control monitoring activities,
we reviewed SOSi’s Quality Control Plan and, as mentioned in Finding 1,
determined that the plan met content requirements established by the
contract. We also reviewed the specific requirements established in the
Quality Control Plan and judgmentally selected a sample of 12 requirements
we believe were the most important in monitoring the contract or had the
greatest effect on monitoring the contract. Overall, in our judgment, these
items presented the greatest risk to noncompliance with laws, regulations,
and guidelines, and would provide fair insight into the contractor’s overall
compliance with the Quality Control Plan.

       Exhibit 8 provides the requirements tested for compliance and our
determination as to whether or not the contractor sufficiently performed and
complied with the requirements. As a result of our evaluation, we
determined that SOSi did not comply with 7 of the 12 requirements
identified.




                                     14
Exhibit 8. Evaluation of SOSi's Quality Control Plan
                                                                            Complied
 Item                            Requirements                                With?
   1     Regular Security Updates                                               No
   2     Semiannual Performance Reviews on SOSi employees                       No
   3     Monthly Administrative Reports (Contract Manager to COTR)              No
   4     Regular meetings with COTR                                             No
   5     Refresher and remedial training by SOSi for its employees             Yes
         Tracking system for labor hours & expenses (employee, case,
   6     task order, CLIN)                                                     Yes
   7     Statistical Data on Employee Performance                              Yes
   8     Weekly Reports on Error Rates                                          No
   9     Requirements Document (Site Supervisor to COTR)                       Yes
   10    Criterion of Data Source Files on Voice Box (T2S2)                    Yes
   11    Acceptable Quality Levels (AQL) Reporting                              No
   12    Worksite Inspection every 3-6 months                                   No
Source: Office of the Inspector General and SOS International Quality Control Plan

     The following sections detail our findings concerning the seven items of
noncompliance noted in Exhibit 8.

Security Background Investigation Updates

      The SOSi Quality Control Plan states that all personnel, once hired
would undergo a continuous review process that included regular security
updates. We spoke with SOSi management and inquired whether or not the
required security updates were being accomplished. According to SOSi
management, these updates were not done, and the reason provided was
that the DEA did not specifically request them. We find this response to be
inadequate and believe this failure to meet the security update requirements
creates a risk for the DEA.

Semiannual Linguist Performance Reviews

      According to the SOSi Quality Control Plan, once every six months, the
Site Supervisor completes a SOSi Employee Appraisal Form for each SOSi
employee assigned to the contract. SOSi provided the OIG with one
performance review from 2007, for a Shift Supervisor covering nearly an
entire year (January 1, 2007 through December 20, 2007). Contractor
employee performance reviews were discontinued in 2007, and there was no
indication that the Contracting Officer approved this change. In addition,



                                            15
SOSi management provided no explanation as to why the reviews were not
done or discontinued in violation of the Quality Control Plan. However, the
SOSi Director of Human Resources stated that they were implementing a
web-based program for future performance reviews.

Monthly Administrative Reports

      As discussed previously in Finding 1, the COTR did not effectively
monitor the requirements of the contract by not ensuring the Monthly
Administrative Reports were completed and maintained in the contract file.
Furthermore, both the contractor and the DEA violated documented
procedures for modification to the contract, which requires prior written
approval of the Contracting Officer.

Meetings Between SOSi and COTR

      According to the SOSi Quality Control Plan, the Site Supervisor is
expected to meet regularly with the COTR to discuss issues, obstacles, and
problems. Additionally, Performance Evaluation Meetings were required at
least every 6 months during the contract performance period. The
contractor was required to prepare written meeting minutes of all
Performance Evaluation Meetings, to be signed by the COTR. Both the COTR
and the Site Supervisor stated they met daily, weekly, and any other time as
deemed necessary; however, there were no meeting minutes or other
records of the discussions.

       Although there were no supporting documents to justify the ratings of
the contractor in the Contractor Performance Reviews, and there are no
historical records of overall contractor performance, in our interviews with
the DEA Special Agents, they all praised the linguists and the supervisors
and expressed satisfaction with SOSi’s performance. Based on this
information, we conclude that the communication was present and the DEA
was satisfied with SOSi’s performance related to translation and
transcription.

Weekly Reports on Error Rates

       The SOSi Quality Control Plan states that the Site Supervisor is
responsible for performing detailed statistical analysis, tracking error rates of
call summaries and transcriptions, and maintaining accurate records. During
our fieldwork at the DEA Dallas Field Division, the Site Supervisor provided
spreadsheets from 2007 that tracked linguist productivity. However, there
were no documents provided reporting error rates, as required, and no
indication that error rates had ever been tracked and recorded.


                                       16
       In interviews with the COTR and DEA Special Agents, all the comments
we received concerning the linguists’ performance were positive and there
were rarely any errors to report. This testimonial evidence, though
consistent from each interviewee, is not supported by any statistical data.
Additionally, the failure to track, record, maintain, and distribute the Weekly
Error Rate Reports is directly adverse to the requirement of the Quality
Control Plan, and there is no indication of prior written approval from the
Contracting Officer. As a result, historical information concerning error rates
for call summaries and transcriptions was not recorded and therefore is not
available for future reference.

Acceptable Quality Levels

      SOSi established in the Quality Control Plan its minimum Acceptable
Quality Levels for the major areas under contract performance. They are:
100 percent for providing at least the number of qualified personnel required
under the contract, 98 percent for accurately completing call summaries
during live monitoring as well as for transcriptions and translations, and 98
percent for adhering to the cost and schedule parameters.

       We asked SOSi management where these statistics were located and
who was responsible for tracking them, but they stated they did not know.
There was no documentation or other evidence provided that demonstrated
these parameters were tracked and reported to the DEA. As a result,
historical information concerning the quality levels of the defined parameters
in the Quality Control Plan was not recorded and therefore is not available
for future reference.

Contractor Site Visits

      According to the Quality Control Plan, at least once every 3-6 months,
at unscheduled intervals, SOSi was required to send an inspection team to
each worksite to review work produced by the SOSi contract management
and administrative staff. The team was to consist of the SOSi Contracts
Manager, an outside consultant, and a SOSi Field Manager from another Title
III worksite. The inspections were generally expected to be completed in a
week, but would last as long as necessary.

      We did not find any reports of these inspections or any documentation
to support that these inspections were done. SOSi management was unable
to explain why the inspections were not done and stated it was a decision
made by “upper” management.



                                      17
      In the previously mentioned instances of failure to comply with the
Quality Control Plan requirements, the result has been primarily the loss of
important historical and statistical data or increased risk of fraud, waste, or
abuse. However, in this case SOSi benefitted financially by avoiding the
additional cost of sending an inspection team to Dallas, Texas. We
estimated that the average trip would be a minimum of 1 week based on
SOSi’s statement that the inspections were generally expected to be
completed in a week, but would last as long as necessary. The per diem and
room expense for 1 week is estimated at approximately $1,000 based on the
current General Services Administration per diem table for Dallas, Texas and
the airfare averages approximately $500 for a round trip based on auditor
inquiry of available air fares as of April 2011. This shows that SOSi saved an
average of approximately $1,500 per person per inspection trip that did not
take place. With a 5.5-year contract, and inspections at least every 3-6
months, we calculate a minimum of 10 trips were required by the inspection
team for the life of the contract. With three members on the inspection
team, the total cost of inspections for the life of the contract is estimated to
be at least $45,000 ($1,500 x 3 persons x 10 trips).

     As a result of SOSi’s failure to perform inspections in accordance with
the Quality Control Plan, which is required by the contract, we consider the
unspent $45,000 as unused funds that should be put to better use. We are
recommending that the DEA remedy the unused $45,000 as funds to better
use and request payment in that amount from SOSi.




                                      18
     3. MONITORING OF CONTRACTOR PERFORMANCE

     We determined that the DEA effectively tracked the linguists’
     hours, the invoices tested were error free, and the linguistic
     services were provided per the contract and the task orders.
     However, the DEA Office of Acquisition Management Contracting
     Officer needs to improve monitoring the COTR’s performance of
     the delegated contract administration activities. Also, neither
     the Contracting Officer, nor the COTR had established an
     effective method to monitor, evaluate, and report SOSi’s
     performance over the life of the contract. As a result, the DEA
     did not have assurance that SOSi complied with the contract
     requirements and has little historical information to evaluate the
     contractor’s performance, other than hours worked, dollars
     spent, and comments from DEA Special Agents. We found:
     (1) linguist certifications were missing or expired,
     (2) unapproved access to DEA Sensitive information,
     (3) monthly administration reports were discontinued,
     (4) Semiannual Contractor Performance Reports were missing,
     (5) Semiannual Contractor Performance Meetings were not held,
     (6) modifications to the contract were done without
     authorization, (7) security clearance and access forms were
     missing and incomplete, (8) meetings between the contractor
     and the COTR were not documented, and (9) the COTR did not
     acquire required continuous learning points.

      To assess the adequacy of the DEA’s procedures for monitoring SOSi’s
performance, we reviewed documentation of SOSi’s compliance with critical
contract requirements and interviewed DEA Dallas Field Division and Office
of Acquisition Management officials regarding the methods used to monitor
SOSi's performance as it relates to compliance with critical contract
requirements.

Contracting Officer Monitoring of COTR

       The Department of Justice, Justice Management Division, implemented
the Acquisition Workforce Management Program (AWMP) effective June 28,
2007. The AWMP establishes the criteria for appointing, terminating,
reviewing, and certifying the acquisition workforce Department-wide. The
FAR, Subpart 1.6; 1.602-2, states that the Contracting Officers are
responsible for ensuring performance of all necessary actions for effective
contracting, ensuring compliance with the terms of the contract, and
safeguarding the interests of the United States in its contractual
relationships. Contracting Officers may appoint individuals selected by


                                     19
program offices to act as authorized representatives in the monitoring and
administration of a contract. Such officials shall be designated as
Contracting Officer’s Technical Representatives (COTR's).

       The AWMP defines the COTR as an individual who has been assigned,
in writing, by the Contracting Officer to assist in the technical monitoring or
administration of a contract. The COTR functions as the "eyes and ears" of
the Contracting Officer, monitoring technical performance and reporting any
potential or actual problems to the contracting officer. It is imperative that
the COTR stay in close communication with the Contracting Officer, relaying
any information that may affect contractual commitments and requirements.
The COTR does not have the authority to make commitments including, but
not limited to, awarding contracts or making changes that affect price,
quality, quantity, or other terms and conditions of the contract.

       According to the Contracting Officer for contract DJDEA-05-C-0020,
the Contracting Officer’s responsibilities include: administration of contract
bidding, approving contract modifications, resolution of day-to-day issues in
the field, and is the point of contact for the COTR for answering questions
and problem resolution. The COTR monitors the contract as described in the
Designation of COTR Letter, and the Contracting Officer gets involved if
there are questions or concerns. The contractor is responsible for submitting
a Monthly Administration Report as described in the contract, and the COTR
performs a semiannual performance review.

     Based on the requirements as stated in the AWMP, and the
noncompliance issues identified in the following sections, we have
determined that the Contracting Officer and COTR need to improve
administration of the contract.

COTR Monitoring of the Contract and Contractor

      As stated previously the COTR functions as the "eyes and ears" of the
Contracting Officer, monitoring technical performance, reporting any
potential or actual problems to the Contracting Officer, and relaying to the
Contracting Officer any information that may affect contractual commitments
and requirements. The COTR does not have the authority to make changes
that affect price, quality, quantity, or other terms and conditions of the
contract.

      To assign a COTR to a contract, the Office of Acquisition Management
Contracting Officer issues a memorandum of Delegation of Contracting
Officer’s Technical Representative. The memorandum provides a detailed



                                      20
description of the COTR’s authority and responsibilities and is signed by the
COTR. The COTR’s responsibilities are summarized as follows:

      • Inspect and monitor contract performance to assure technical
        proficiency and compliance with the technical terms of the contract.
      • Establish and provide to the cognizant Contracting Officer, a
        surveillance plan that will ensure receipt of the quality, quantity,
        and kinds of supplies or services required by the contract.
      • Ensure that the contractor complies with the statement of work
        and/or other specifications contained in the contract.
      • Review and evaluate the contractor’s progress relating to
        expenditures and verify the contractor has satisfactorily completed
        delivery of all required items under the contract.
      • Review contractor invoices and approve or disapprove for payment.
      • Recommend any desired changes to the contract to the Contracting
        Officer and ensure they are formally authorized prior to the
        implementation.

Administrative Activities and Financial Performance

       Based on the above listed responsibilities, the COTR had two primary
functions: (1) ensure compliance with the terms and conditions of the
contract by monitoring the activities of the contractor, and (2) ensure
invoices were complete and accurate by verifying hours worked, pay rates
applied, and total charges to ensure the government received the services
for which it contracted. The administrative duties associated with
compliance to the contract included meetings, reports, security clearances,
linguistic language certifications, performance evaluations, and documented
communications with the contractor and Contracting Officer.

      In Finding 1, we discussed issues concerning the contractor’s failure to
meet some of the key requirements of the contract that we believe were the
most important in monitoring the contract or had the greatest affect on
monitoring the contract. In Finding 2, we discussed issues concerning the
contractor’s failure to comply with the Quality Control Plan.

      Specifically, we found the contractor: (1) failed to prepare and submit
Monthly Administrative Reports, (2) language proficiency certifications were
not provided or expired, (3) regular security updates were not provided to
the DEA, (4) semiannual linguist performance reviews were not completed,
(5) regular meetings with the COTR were not documented, (6) weekly error
rates were not tracked and reported, (7) Acceptable Quality Levels were not
tracked or reported, (8) contractor made undocumented and unauthorized



                                      21
changes to the Quality Control Plan, and (9) contractor site visit inspections
were not performed.

       As a result of the failures of the contractor to perform the
requirements of the contract and Quality Control Plan, we have determined
the COTR needs to improve monitoring and control over the contract and the
contractor. Failure to adequately monitor these requirements increases the
risk of fraud, waste or abuse by the contractor. However, we determined
the time and attendance records we checked were correct and the invoices
we verified accurately listed hours worked, billing rates, and total charges.
Also, we determined through our interviews with DEA Dallas Field Division
officials and DEA Special Agents that the DEA was satisfied with SOSi
personnel and did not have any concerns regarding SOSi’s performance
under the contract.

Contractor Meetings and Records of Meetings

        The COTR was required to hold Performance Meetings with the
contractor at least once every 6 months, more often if the COTR or
contractor requested, to discuss problems that arose during the contract
performance and to discuss the performance of the contract employees.
These Performance Meetings were to be held weekly during the contract
initiation period. Additionally, the contractor was responsible for preparing
minutes of these meetings, and the COTR was required to approve the
minutes. The COTR was required to maintain a file of all correspondence
between the COTR and the Contracting Officer and contractor, including
memoranda for the record of any unwritten actions or decisions. This file is
considered a segment of the official contract file.

      According to the COTR, there were no Performance Meetings held
because they communicate daily and weekly and resolved any issues or
problems as they occurred, so there was no need for a 6-month meeting.
There were no meeting minutes or other documentation of any
communications or decisions. As a result, the COTR did not fully comply
with the terms of the contract concerning holding Performance Meetings,
and did not carry out the responsibilities of documenting actions and
decisions as outlined in the Memorandum of Delegation of COTR.

Semiannual Contractor Performance Reports

      The contract required the contractor to be rated on its performance
under the contract twice a year by the COTR using the National Institute of
Health’s Contractor Performance System (CPS), which is an electronic
method of rating past performance. Contractors must register with the CPS


                                      22
to activate this process. If for any reason the COTR was unable to access
this electronic method, the contractor performance report and the Rating
Guidelines were provided as an attachment to the contract.

      Based on the length of the contract (5.5 years), we calculated that
there were 11 Semiannual Contractor Performance Reports due to have been
processed by the COTR. We reviewed the contract file at the DEA
headquarters, and found six semiannual contractor performance reports as
shown in Exhibit 9. The first two were submitted within 1 month of the end
of the respective reporting period, but those that followed were excessively
late or not found. The last report to be submitted was for a 1-year rather
than a 6-month period, and was nearly a year late.

Exhibit 9. Contractor Semiannual Performance Reports
                                                     Days Past
                                         Date         Period
  No.       Reporting Period 7         Submitted       End              Comments
   1         5/1/05 to 10/31/05         11/29/05        29
   2         11/1/05 to 4/30/06          5/24/06        24
   3          5/1/06 to 11/1/06           2/1/07        92
   4         11/2/06 to 4/30/07          1/10/08       255
   5         5/1/07 to 10/31/07          1/10/08        71
   6         11/1/07 to 4/30/08                                   Not found
   7         5/1/08 to 10/31/08                                   Combined with next
   8          5/1/08 to 4/30/09            3/1/10       305       Covered 1 year
   9         5/1/09 to 10/31/09                                   Not found
  10         11/1/09 to 4/30/10                                   Not found
  11         5/1/10 to 10/31/10                                   Not found
Source: Drug Enforcement Administration and Office of the Inspector General

     The COTR stated that to complete a semiannual performance review
on CPS, you must be “invited” into the system by the Contract Specialist at
headquarters, and are notified that the performance review will need to be
accomplished. The six reports that were submitted were for periods where
the COTR was invited to complete a performance report.

     We are not certain as to why the COTR was not “invited” into the
system to complete some of the reviews, but we believe it was incumbent
upon the COTR to ensure that the contract requirement was completed.

        7
         The reporting periods were calculated by the OIG based on 6-month review
periods beginning 6 months after the start of the base performance period, which began
May 1, 2005.




                                           23
Additionally, the contract specifically states that if unable to access the
electronic system, the Contractor Performance Reports form is located in
Section J of the contract as attachment J-A-1. Therefore, there is no reason
for the Semiannual Contractor Performance Reports to have not been
completed either electronically or manually. As a result of the COTR failing
to comply with the contract in regard to submitting semiannual contractor
reports, historical information concerning the performance of the contractor
was not recorded and is therefore not available for future reference.

      We reviewed the six reports that were submitted, and all of them had
the highest ratings of 5, with an overall score of “Outstanding”, and the only
comments were the definitions for that rating as shown in the instructions
for completing the form. The section for additional information provided
useful comments concerning key personnel.

Performance Evaluation Meetings

        Performance evaluation meetings were required between the DEA
 COTR and SOSi to resolve problems that arose during the period of the
 contract. The contract requires that at a minimum, Performance Evaluation
 Meetings were to be held every 6 months during the performance period,
 and more frequently as requested by the COTR or contractor. Performance
 Meetings were required on a weekly basis during the initial contract
 implementation period. Written meeting minutes were to be prepared by
 SOSi and approved by the COTR. The COTR was required to maintain a file
 of all correspondence between the COTR and the Contracting Officer and
 contractor, including memoranda for the record of any unwritten actions or
 decisions. This file is considered a segment of the official contract file.

       Furthermore, there were no meeting minutes or other documentation
of communications or decisions for any meetings. As a result, the COTR
failed to meet the terms of the contract concerning holding of performance
evaluation meetings, and failed to carry out the responsibilities of
documenting actions and decisions as outlined in the Memorandum of
Delegation of COTR.

      The COTR stated that they have never held these 6-month meetings.
There were very few problems or issues, and the few that did occur were
resolved verbally on a daily or weekly basis. The DEA Dallas Field Division
has been very satisfied with SOSi’s performance. The linguists have had an
excellent working relationship with the agents, and SOSi management has
been flexible when needed.




                                      24
      SOSi’s management stated that they did not have the Semiannual
Performance Reviews because there have been very few problems over the
10-year relationship with the DEA Dallas Field Division, and they have
received an “Outstanding” rating on every performance evaluation that was
submitted. Any issues were resolved daily or weekly.

Contractor Quality Control Plan

      SOSi was required under the terms and conditions of the contract to
develop and implement a Quality Control Plan that established and
maintained well documented quality control procedures that ensured the
production and deliverance of acceptable performance and materials. We
reviewed the contract file but the Quality Control Plan was not included and
the COTR was unaware it existed. Upon request, the SOSi Site Supervisor
produced a copy of the Quality Control Plan for the COTR and the OIG.
Since the COTR had not previously seen a copy of the Quality Control Plan,
we concluded the COTR had never read or studied its contents, and
therefore could not have enforced it.

Security Background Investigations

Approval for Access to DEA Sensitive Information

       According to the contract, the DEA is responsible for conducting a
background investigation on all contractor personnel assigned to the
contract, and all contractor personnel must be approved in writing by the
DEA Office of Security Programs for access to DEA Sensitive information. A
contractor’s employee(s) shall not be assigned to perform services for the
DEA until the contractor has been notified in writing by the COTR that the
individual(s) have been approved by the DEA Office of Security Programs.

      To test compliance with the requirements for access to DEA Sensitive
information, we evaluated the access approvals for all linguists assigned to
work under this contract. For each linguist, we examined the hire date,
waiver start and expiration dates if applicable, the final approval date, and
hours worked before, during, or after periods of clearance. Exhibit 10
summarizes the results of our testing.




                                      25
Exhibit 10. Summary of Access Approvals for DEA Sensitive
             Information
  Incidences                               Issue
       8       No information or paperwork provided
       6       Worked after waiver expired without an extension or final
               access approval
       1       Worked during gap between waiver expiration and final
               access approval
       3       Worked prior to waiver approval
       4       Worked prior to final access approval (no waiver involved)
Source: Drug Enforcement Administration and the Office of the Inspector General

      In summary, there were 22 instances involving 20 of the linguists in
which personnel worked without documented approved access to DEA
Sensitive information. Additionally, of the 51 clearance approval forms
received, 17 (33.3 percent) were missing signatures or other information. 8
Based on this information, we have determined that the DEA violated its own
security procedures as documented in the contract and DEA policy DEA-
2852.204.84. 9

Security Background Investigation Updates

      The contract provides extensive information on the requirements for
background investigations prior to access to DEA Sensitive information.
However, the only information we could find in the contract on updates or
reinvestigations of background information concerned changes in marital
status.

      Access to DEA Sensitive information and other security related issues
are generally addressed in the contract in Section H.1, Security
Requirements. This section appears to be a replication of the then current
version of DEA policy DEA-2852.204.84.

      However, the original version of security requirements in the contract
is dated May 2004, and that was amended to the November 2005 version in
Modification No. 1, which had an effective date of May 1, 2005. Neither the

      8
          There were eight linguists for which documentation of approved access was not
received. The 51 approvals that were received were for other individuals, with some having
multiple approvals, such as for a waiver and then a final approval.
      9
        DEA-2852.204.84 PUBLIC TRUST POSITIONS – SECURITY REQUIREMENTS FOR
ACCESS TO DEA SENSITIVE INFORMATION/U.S. CITIZENSHIP OR PERMANENT RESIDENT
ALIEN STATUS REQUIRED, August 2010.




                                           26
2004 nor the 2005 version discussed reinvestigation requirements or the
length of time access was valid. They both required the SF-86 for the
background investigation, but there was no reference to the time periods
that appear in the 2010 version. Furthermore, the 2010 version changes
the form required for public trust positions from the SF-86, which requires a
reinvestigation after 15 years, to the SF-85, which requires reinvestigation
after 5 years.

      Additionally, when access or security clearances are approved, the
DEA currently uses the ISR-8 Memorandum, version August 8, 2007. There
is nothing on this form to indicate when the access or clearance expires,
when a reinvestigation is needed, or what form (SF-85 or SF-86) was used
for the background check. The only exception is that in the case of a waiver,
the form has blocks to specify if the waiver is for 6 months or 12 months
from the date on the ISR-8. In verifying the access clearances, we noted
the use of five versions of authorization and approval forms, as shown in
Exhibit 11, the earliest being Form PSR-23, dated January 6, 1994.

      The PSR-23 is the only authorization and approval form that actually
stated that “when approval for access to DEA Sensitive information, on a
need to know basis, has been granted it will continue in effect until
cancelled, revoked, or upgraded.” None of the subsequent revisions
contained this statement.

Exhibit 11: Access Clearance Authorization and Approval Forms

    AUTHORIZATION/                 REVISION         DISTRIBUTION OF FORMS
    APPROVAL FORM                    DATE           FOR 38 LINGUISTS
        PSR-23                    1/6/1994                     6
         PSR-8                     11/1995                     1
         SPR-8                     11/1997                     4
         ISR-8                      8/2000                    26
         ISR-8                    8/8/2007                    12
         ISR-8                    1/19/2011                    2
                 TOTAL                                        51
Source: Office of the Inspector General and Drug Enforcement Administration

      We requested from the DEA Office of Security Programs the criteria for
reinvestigation and the supporting documents that define the requirements
for the contract period. The response was that they provide access to DEA
Sensitive information, and not clearances. The access is good for 5 years for
the SF-85 and 15 years for the SF-86, and that this information was usually
available in Section H of the contract. It remains unclear exactly what the


                                          27
criteria was prior to the August 2010 revision to DEA-2852.204.84, and
although the contract states clearly the required form for initiating the
background checks (SF-86), the final authorization and approval form does
not provide information on what form was actually used or limitations to
access, except in the case of a waiver, in which blocks are checked to specify
a 6-month or 12-month waiver period.

Modifications to the Contract

      The COTR does not have the authority to alter the contractor’s
obligations under the contract, direct changes that fall under the purview of
the General Provisions clause entitled “Changes”, or modify any of the
expressed terms, conditions, specifications, or costs of the agreement. If as
a result of technical discussions, it is desirable to alter or change the
contract requirements, the Contracting Officer shall execute such changes in
writing.

      In the previous sections, we identified multiple occurrences in which
contract requirements were not complied with as required. In the case of
the Monthly Administrative Reports being discontinued, this was an instance
in which instructions were given that directly violate the terms of the
contract, and no evidence was presented to support authorized modifications
to the contract. The other instances of non-compliance with the contract
requirements such as missing Contractor Performance Reports, missing or
expired language certificates, and missing security access approvals were
instances of failure to perform a task or event.

Continuous Learning Points

       The Department of Justice Acquisition Workforce Management Program
(AWMP) became effective June 28, 2007. One purpose of the plan was to
implement a department-wide policy in support of the Federal Acquisition
Certification programs in accordance with the Office of Federal Procurement
Policy (OFPP). 10 Specifically, it includes the training and certification
requirements for the Federal Acquisition Certification in Contracting (FAC-C)


       10
          The Federal Acquisition Certification programs referred to are from the Office of
Federal Procurement Policy (OFPP), Policy Letter 05-01, Developing and Managing the
Acquisition Workforce, and the Office of Management and Budget (OMB) Memos, The
Federal Acquisition Certification in Contracting Program dated January 20, 2006, The
Federal Acquisition Certification for Program and Project Managers dated April 25, 2007, and
The Federal Acquisition Certification for Contracting Officer Technical Representatives dated
November 26, 2007.




                                             28
and Federal Acquisition Certification for Contracting Officer Technical
Representatives (FAC-COTR).

       According to the AWMP, acquisition professionals are required to earn
continuous learning points to maintain their certification. All Contracting
Officers, regardless of GS series, warranted above the micro purchase
threshold are required to earn 80 continuous learning points of skills
currency training every 2 years to maintain FAC-C. The DEA provided
training records for the Contracting Officer for this contract, and according to
the records, the continuous learning points requirements were met.

       To maintain a FAC-COTR certification, certified professionals are
required to earn 40 continuous learning points of skills currency training
every 2 years beginning the first fiscal year following the effective date of
certification. We requested records from the DEA to support the COTR’s
completion of the continuous learning points requirements, but none were
provided. Additionally, the COTR stated that there were no continuing
professional education requirements, and they only had to be recertified
every 2 years. Therefore we concluded that the COTR did not acquire the
required continuous learning points.

DEA Contract Administration Plan

       We began our fieldwork with an entrance conference at the DEA
headquarters on October 13, 2010. During that visit we asked to see any
policies or procedures concerning contract monitoring and control, and the
only documents that were provided were the Memorandum of Delegation of
COTR and the letter of Roles and Responsibilities of the COTR.
Approximately 3 months later the COTR provided us with the DEA Contract
Administration Plan that documents the process necessary to administer
Title III Linguist Services Contracts. The document has an effective date of
October 1, 2010, which was approximately 2 weeks prior to the start of the
audit.

       We asked the Contracting Officer why this document was not
presented to the OIG when information concerning monitoring and
controlling the contract and contractor was requested. The response was
that it was an oversight because the document was still under consideration
and had not yet been adopted so it was not considered policy.

      We believe that this document appears to be comprehensive and
explicit in its requirements; however, we question its value when evidence
indicates that requirements in the contract and delegation letters are not
followed.


                                      29
                       OVERALL CONCLUSIONS

      Through extensive examination of financial information, we
determined that the COTR maintained exceptional records of time and
attendance. As a result, we were able to verify the number of hours worked
by SOSi employees, verify hourly billing rates, and confirm the accuracy of
invoices. There were no dollar-related discrepancies in any of the invoices
tested.

      However, through our testing and evaluation, we concluded that many
of the requirements of contract DJDEA-05-C-0020, as well as those of the
required contractor Quality Control Plan, were not fully accomplished.
Failure to meet these requirements may create a risk to the DEA of fraud,
waste, and abuse.

      Specifically, we found: (1) SOSi failed to prepare and submit Monthly
Administrative Reports, (2) language proficiency certifications were not
provided or expired, (3) regular security updates were not provided to the
DEA, (4) semiannual linguist performance reviews were not completed by
SOSi, (5) regular meetings with the COTR and SOSi were not documented,
(6) Weekly Error Rates and Acceptable Quality Levels were not tracked or
reported, (7) the contractor did not always comply with the Quality Control
Plan, (8) contractor site visit inspections were not performed,
(9) semiannual contractor performance reports were not submitted,
(10) security authorizations to access to DEA Sensitive information were
missing or expired, (11) linguists worked without approved DEA access
authorization, (12) contractor performance evaluation meetings were not
held, (13) the COTR did not enforce the requirements of the contract and
Quality Control Plan, (14) security background reinvestigation requirements
were unclear, (15) modifications to the requirements of the contract were
not approved by the Contracting Officer, (16) security authorization forms
were incomplete, (17) the SOSi Quality Control Plan was missing from the
contract file and the COTR had not reviewed it, and (18) the COTR did not
earn required continuous learning points.

      Due to these conditions, we concluded the COTR needs to improve
contract monitoring and the Contracting Officer needs to improve monitoring
of the COTR’s performance of the delegated contract administration
responsibilities. We believe the deficiencies identified create a risk to the
DEA for fraud, waste, and abuse. However, we determined through our
interviews with DEA Dallas Field Division officials and Special Agents that the
DEA was satisfied with SOSi personnel and did not have any concerns
regarding SOSi’s performance under the contract.



                                      30
Recommendations

  We recommend that the DEA:

  1. Implement procedures to ensure the Contracting Officer fully monitors
     the activities of the COTR, contract administration, and contractor
     performance and the COTR monitors all aspects of contract
     performance and all contractor activities, and reports regularly to the
     Contracting Officer.

  2. Implement procedures to ensure requirements for periodic background
     reinvestigation are tracked and accomplished timely, and approvals for
     access to DEA Sensitive information are completed and current, and
     files are maintained.

  3. Implement procedures to ensure linguists have been properly certified,
     that certifications are kept current, and only certified linguists work
     under the contract (including $934,144 dollars in questioned costs).

  4. Ensure that for future contracts, the contractor’s Quality Control Plan
     is included in the contract file and disseminated to appropriate
     personnel, the plan requirements are periodically reviewed and
     updated, and the plan requirements are accomplished by the
     contractor (including $45,000 dollars in funds to better use for
     undocumented on site inspections).

  5. Implement procedures to ensure Monthly Administrative Reports and
     Semiannual Contractor Performance Reports are completed, submitted
     timely, and maintained in the contract file.

  6. Implement procedures to ensure contractor Site Supervisor and COTR
     meetings, Semiannual Contractor Performance meetings, and any
     other meetings between the contractor and DEA are regularly held,
     documented, and are included in the contract file.

  7. Implement procedures to ensure the COTR meets the Department of
     Justice’s requirements for continuous learning points.

  8. Implement procedures to ensure all modifications to the contract are
     properly documented, authorized, and maintained in the contract file.

  9. Implement procedures to ensure all forms are completely filled in,
     properly authorized or approved, and maintained in appropriate files.



                                     31
10. Evaluate the time required for the COTR to fulfill their requirements
   and ensure enough time is allocated to accomplish all responsibilities.




                                   32
                                                                        APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this contract audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       We conducted this audit in response to the President’s call for federal
agencies to eliminate waste and maximize the value achieved from their
contracts by reviewing existing contracts to identify waste and
inefficiencies. 11 The objectives of the audit were to: (1) determine whether
SOSi provided goods and services in accordance with the contract and
government requirements; (2) determine whether costs billed under the
contract were accurate; and (3) assess the adequacy of the DEA's
procedures for monitoring SOSi's billings and performance.

       The audit generally covered, DEA contract number DJDEA-05-C-0020.
We tested compliance with what we considered to be the most important
requirements of the contract. Unless otherwise stated in our report, the
criteria we audited against are contained in the Federal Acquisition
Regulation, the contract, and the SOSi Quality Control Plan.

       We conducted our audit work in the DEA Office of Acquisition
Management and the Dallas Field Division, and in SOSi’s operations offices in
Reston, Virginia. We interviewed acquisition, administration, and operations
staff from the DEA and SOSi. We also reviewed documentation of linguists’
qualifications, reported hours of performance, SOSi billing, and quality
control activities.

        In conducting our audit, we performed sample testing in seven areas:
(1) evaluation of contract modifications; (2) completion of key contract
requirements; (3) evaluation of linguist’s security clearances; (4) accuracy
of billing on invoices; (5) content of invoice according to the FAR and the
contract; (6) evaluation of linguist’s qualifications, and (7) evaluation of

      11
           Government Contracting Presidential Memoranda dated March 4, 2009.




                                           33
contractor’s (SOSi) Quality Control Plan. For testing purposes, we selected
samples of task orders issued against the basic contract and associated
reports of hours worked, invoices submitted for payment, and proficiency
certificates of linguists assigned to the contract. A judgmental sampling
design was applied to obtain broad exposure to numerous facets of the
contract reviewed, such as dollar amounts or risk. This non-statistical
sample design does not allow projection of the test results to all contract
expenditures or internal controls and procedures.

      We reviewed the contract monitoring activities of the DEA Office of
Acquisition Management and the Dallas Field Division. In addition, we
reviewed SOSi’s Quality Control Plan and the DEA’s monitoring of SOSi’s
implementation of the Quality Control Plan.




                                     34
                                                                         APPENDIX II

            SCHEDULE OF DOLLAR RELATED FINDINGS

QUESTIONED COSTS 12                                        AMOUNT              PAGE
   Unsupported costs due to lack of                    $934,144                    12
   language proficiency certifications
Total Questioned Costs                                 $934,144
FUNDS TO BETTER USE
   Unspent funds due to failure of SOSi to             $ 45,000                    18
   perform on-site inspections
Total Funds to Better Use                              $ 45,000
TOTAL DOLLAR-RELATED FINDINGS                          $979,144




      12
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

     Funds to Better Use are future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations.




                                           35
                                                                                        APPENDIX III

                 DEA Response to the Draft Report
                                                    U. S. Department of Justice
                                                    Drug Enforcement Administration




www.dea.gov                                         Washington, D.C. 20537


                                                        OCT 28 2011

MEMORANDUM

TO,             Raymond J. Beaudet
                Assistant Inspector General for Audit
                Office of the Inspector yeneral

FROM:           KevinM.Foley     ~...A
                Deputy ChiefI;/~'(
                Office of Inspections

SUBJECT,        DEA's Response to the OlG's Draft Rcport: Audit of the Drug Enforcement
                Administration's Language Services Contract with SOS International, Ltd.
                Contract No. DJDEA·OS·C-0020

    The Drug Enforcement Administration (DEA) has reviewed the Department of Justice
(DOJ), Office of the Inspector General's (OIG) Draft Audit Report. entitled: Audit of the Drug
Enforcement Administration's Language Services <:;ontract with SOS International, Ltd.
Contract No. DJDEA-OS-C-0020. DEA acknowledges OIG in conducting a review of DE A's
efforts to provide linguist services to inelude monitoring, interpretation, translation, and
transcription services for DEA Title III judicial intercepts.

OIG identified recommendations that consisted of administrative crrors during the review. DEA
concurs with the recommendations and has proactively taken the appropriate steps to implcment
all of the recommendations.

DEA provides the following response to the OIG' s recommendation:

      Recommendation I: Implement procedures to ensure CO fully monitors Contracting
      Officer's Representative (COR) activities, contract administration, and contractor
      performance, and ensure the COR monitors all aspects of contract performance and all
      contractor activities, and reports regularly to tbe Contracting Officer.

   DEA concurs witb tbe recommendation. lbe Office of Acquisition and Relocation
   Management (FA), Acquisition Management Section (F AC). revised the fiscal year (FY)
   2010 version ofthc Linguist Contract Administration Plan to simplify the language and
   streamline the process to ensure contract administration is adequately performed by the
   Contracting Officer Representative (COR), Task Monitor (TM), Contract Specialist and




                                              36

Raymond J. Beaudet, Assistant Inspector General for Audit                                 Page 2

   Contracting Officer (CO). The revised plan is easier to read and contains clear instructions
   for contract administration activities; checks and balances at all levels; and checklists for
   CORs, TMs and Contract Specialists to be completed on a monthly basis by the first
   business day of each month. TMs and CORs are to obtain monthly Customer Satisfaction
   Surveys from wire room agents. On a monthly basis, the TM is to complete a Contractor
   Performance Assessment Report (CPAR) to be signed by the contractor, with a copy
   furnished to the COR and Contract Specialist; this report will contribute to the overall
   contractor performance rating in the Contractor Performance Assessment Report System
   (CPARS) on an annual basis as required by the contract (the contract will be modified to
   reflect the most current CPARS annual reporting requirement). By April I and October I of
   each year, both the TM and COR are to complete the Contract Administration Report and
   forward a copy to the Contract Specialist. By October I of each year, the COR, Contract
   Specialist and CO will formally document overall contractor performance in CPARS. A
   monthly checklist of all the items of contract administration is provided to remind the COR,
   TM, and Contract Specialist of the documentation required to support their contract
   administration efforts. The Chief of FAC, is in the process of implementing the new
   Contract Administration Plan, with its required reporting and checklists, and will ensure that
   COs and Contract Specialists receive (or obtain) the required documentation and comply
   with the plan. How well the CO and Contract SpeciaJist perform these duties will be
   reflected in their annual performance appraisals. Additionally, the Chief of FAC, will ensure
   that CORIProgram Manager (PM) training is conducted by November 30, 2011. Supervisors
   of the COR and TM will be notified of the key roles the COR and TM play in monitoring
   contractor performance.

   Corrective action will be completed by November 30, 2011. See Exhibit I - Contract
   Administration Plan, 8.4 (b), (e), and (I); Contractor Performance Assessment Report,
   Attachment 0; Contract Administration Report, Attachment E; Contract Administration
   Checklist for TMs and CORs, Attachment F; and Contract Administration Checklist for
   Contract Specialists, Attachment G.

   Recommendation 2: Implement procedures to ensure that requirements for periodic
   background investigation are tracked and accomplished in a timely manner and that
   approvals for access to DEA Sensitive inFormation are completed and current, and files
   are maintained.

   DEA concurs with the recommendation. Pursuant to the Contract Administration Plan,
   CORfTMs are directed to establish and maintain contract administration documentation
   including Security Access approvals or waivers. Checklists/reports for CORs, TMs and
   Contract Specialists completed on a monthly basis by the first business day of each month
   and bi-annually in April and October include the checklist/report item "Security Access
   Approvals or Waivers are complete and up-to-date" as a regular reminder of this duty to
   keep these approvals current. The CO will ensure the Contract Specialist completes the
   checklists and follows up with the CORs each month. Additionally, FA issued a letter to all
   linguist contractors and a memorandum to all CORs administering linguist contracts (Exhibit
   2), that clearly describes the process for obtaining security access approvals, along with a
   detailed flowchart. The Office of Security Programs (IS) implemented steps to ensure
   periodic background investigations are tracked and all approvals for access to DEA




                                            37

Raymond J. Beaudet, Assistant Inspector General for Audit                                      Page 3

   information are complete. One ofIS's first steps was moving from the old tracking system
   Eagle Eye, to the Department of Justice 's Justice Security Tracking and Adjudication Record
   System (JSTARS). JSTARS will track investigations and identify individuals whose waiver
   is expired or due a reinvestigation. JSTARS automatically fOIWards approval forms from the
   adjudicator to the supervisor ensuring their completion. JSTARS will also automatically
   send the forms to the field component after the supervisor's approval. Additiona1ly, a policy
   has been set to conduct reinvestigations on linguists every five years. FA in coordination
   with IS has included a clause in all service contracts that requires contractors to supply
   quarterly rosters of contractor staff to IS. If contractors fail to send the rosters to IS, IS will
   report the failure to the COR and FA for follow up.

   Corrective action will be completed by November 30, 2011. See Exhibit 1 - Contract
   Administration Plan, 7.0(d) Contract Administration Files; 8.1 Security; and Contractor
   Performance Assessment Report, Attachment 0 ; Contract Administration Report,
   Attachment E; Contract Administration Checklist for TMs and CORs, Attachment F; and
   Contract Administration Checklist for Contract Specialists. Attachment G.

   Recommendation 3: Implement procedures to ensure linguists bave been properly
   certified, tbat certifications are kept current, and tbat linguists cannot work under a
   contract witbout proper language certification.

   DEA concurs with the recommendation. Pursuant to the Contract Administration Plan,
   CORlTMs are directed to establish and maintain contract administration documentation
   including language certifications or waivers. Checklists/reports for CORs, TMs and
   Contract Specialists completed on a monthly basis by the first business day of cach month
   and bi-arulUa11y in April and October include the checklist/report item "Language
   proficiency certificates, or waivers, received and up-to-date" as a regular reminder of this
   duty to keep these approvals current. The CO will ensure the Contract Specialist completes
   the checklists and follows up with the CORs each month.

   With regard to missing or expired language certifications for 14 of39 linguists, the
   contractor requested, and the CO granted, waivers on September 7, 2011 for the period May
   1,2005 through October 31,2010 under contract number OJDEA·05-C-0020. See Exhibit 3
   for waiver approva1 and documentation.

   Corrective action will be completed by November 30, 2011. See Exhibit 1 - Contract
   Administration Plan, 8.2 (b) Staffing; Contractor Perfonnance Assessment Report,
   Attachment 0 ; Contract Administration Report, Attachment E; Contract Administration
   Checklist for TMs and CORs, Attachment F; and Contract Administration Checklist for
   Contract Specialists. Attachment G.

   Recommendation 4: Ensure tbat for future contracts, the contractor's Quality Control
   Plan is included in tbe contract file and disseminated to appropriate personnel, that the
   contractor performs all requirements of its Quality Control Plan, that the contract and
   Quality Control Plan requirements are reviewed and updated periodically to eliminate,
   add or modify contents, and tbat modifications to tbe contract and contractor Quality
   Control Plan are properly autborized and approved.




                                              38

Raymond J. Beaudct, Assistant Inspector Gencral for Audit                                 Page 4


   DEA concurs with the recommendation. The Quality Control (QC) Plan in the auditcd
   contract is includcd in the contract file. A copy of the complete contract file including
   attachments will be maintained in the CORfTMs files. Further, the requirements of the QC
   Plan are highlighted in the Contract Administration Plan. Checklists/reports for CORs, TMs
   and Contract Specialists completed on a monthly basis by the first business day of each
   month and bi-annually in April and October include the checklist/report item "Contractor
   complied with pre-approved QC plan" in Attachment D, and "QC Plan reviewed and
   updated, and contract modification rctained in file" in Attachment E, as a regular reminder of
   this duty to review and update the requirements of the QC Plan. Checklist Attachments F
   and G remind the COR, TMs, and Contract Specialist to update the QC Plan at least
   annually. The CO will ensure the Contract Specialist completes the checklists and follows
   up with the CORs each month.

   Corrective action will be completed by November 3D, 2011. See Exhibit I - Contract
   Administration Plan, 9.0 Quality Control; Contractor Perfonnance Assessment Report,
   Attachment D; Contract Administration Report, Attachment E; Contract Administration
   Checklist for TMs and CORs, Attachment F; and Contract Administration Checklist for
   Contract Specialists, Attachment G.

   Recommendation 5: Implement procedures to ensure Monthly Administrative Reports
   are completed, submitted timely, and maintained in tbe contract file and that semi­
   annual contractor performance reports are accomplished as required.

   DEA concurs with the recommendation. Pursuant to the Contract Administration Plan,
   TMs and CORs are to obtain monthly Customer Satisfaction Surveys from wire room agents.
   On a monthly basis, the TM is to complete a CPAR to be signed by the contractor, with a
   copy furnished to the COR and Contract Specialist; this report will contribute to the overall
   contractor perfonnance rating in CPARS on an annual basis as required by the contract (the
   contract will be modified to reflect the most current CPARS annual reporting requirement).
   By April I and October I of each year, both the TM and COR are to complete the Contract
   Administration Report and forward a copy to the Contract Specialist. By October I of each
   year, the COR, Contract Specialist and CO will fonnally document overall contractor
   perfonnance in CPARS. A monthly checklist of all the items of contract administration is
   provided to remind the COR, TM. and Contract Specialist of the documentation required to
   support their contract administration efforts. The CO will ensure the Contract Specialist
   completes the checkli sts and follows up with the CORs cach month.

   Corrective action will be completed by November 30, 2011. See Exhibit I - Contract
   Administration Plan. 8.4 Contractor Perfonnance Assessment; 11 .0 Contract Schedule;
   Customer Satisfaction Survey, Attachment C; Contractor Performance Assessment Report,
   Attachment D; Contract Administration Report, Attachment E; Contract Administration
   Checklist for TMs and CORs, Attachment F; and Contract Administration Checklist for
   Contract Specialists, Attachmcnt G.

   Recommendation 6: Implement procedures to ensure that meetings art: accomplished
   as required and that minutes are recorded and included in the contract file, i.e. Site




                                            39

Raymond J. Beaudet, Assistant Inspector General for Audit                                  PageS

   Supervisor and COR meetings; contract performance evaluation meetings.

   DEA concurs with the recommendation. Pursuant to the Contract Administration Plan,
   CORlTMs are directed to meet with the contractor monthly and annually and to document
   the results of the required meetings. Checklists/reports for CORs, TMs and Contract
   Specialists completed on a monthly basis by the first business day of each month and
   annually in October include the checklist/report item "Contractor met regularly with
   CORfTM to discuss and document perfonnance" as a regular reminder of this duty. The CO
   will ensure the Contract Specialist completes the checklists and follows up with the CORs
   each month.

   During the time period audited, the COR indicated that meetings were conducted
   periodically to review contractor perfonnance. On-site inspections by the contractor were
   perfonned less frequently than initially estimated; however. this is a fixed price contract.
   The government accepted perfonnance upon approval and payment of invoices.

   Corrective action will be completed by November 30, 2011. See Exhibit I - Contract
   Administration Plan, 7.0 Contract Administration File; 8.4(h) Contractor Perfonnance
   Assessment; 11.0 Contract Schedule; and Contractor Perfonnance Assessment Report,
   Attachment D.

   Recommendation 7: Implement procedures to ensure the COR meets the Department
   of Justice's requirements for continuous learning points.

   DEA concurs with the recommendation. A new COR Program is being issued by the
   Office of Acquisition and Relocation Management, Policy Unit (F APP), which includes a
   new COR Handbook 1st Edition, a full audit and reconfiguration of the Master Active COR
   listing, and introduction of the new Federal Acquisition Institute Training System (F AITAS
   2.0) by the DEA Acquisition Career Manager. These instruments replace a patchwork of
   legacy systems and documents and provide better oversight to maintaining current
   continuous learning educational requirements for FAC-COR certification standards.

   Corrective action will be completed by November 30, 2011.

   Recommendation 8: Implement procedures to ensure all modifications to the contract
   are properly documented, approved, authorized, and maintained in the contract file.

   DEA concurs with the recommendation. During the past year, new procedures were
   implemented requiring Contract Specialists to upload approved docwnents in the Unified
   Financial Management System (UFMS), DEA's electronic contract writing system, prior to
   final approval to ensure that a signed copy of every document is available electronically as
   well as physically in the Official Contract File. The CO will ensure the Contract Specialist
   completes all file documentation appropriately prior to final approvaL

   Corrective action will be completed by November 30, 201 1.




                                             40

Raymond 1. Beaudet.. Assistant Inspector General for Audit                                Page 6

   Recommendation 9: Implement prOl:!edures to ensure all fonus are completely filled in,
   properly authorized or approved, and maintained in appropriate files.

   DEA concurs witb tbe recommendation. Pursuant to the Contract Administration Plan,
   contract administration files are to be maintained by the TM, COR and Contract Specialist.
   The Plan states that these files are surrendered to the CO at the conclusion of the contract
   and incorporated into the Official Contract File. The TMiCOR is directed in the Contract
   Administration Plan to reject any invoice that does not include the list of information
   specified by the contract and restated in the Contract Administration Plan for inclusion on
   the invoice.

   Additionally, prior to the OIG audit, IS implemented steps to ensure all forms are completely
   filled out, approved and placed in the appropriate file . One ofIS' s first steps was moving
   from the old tracking systcm Eagle Eye to the JSTARS. This system will track
   investigations and identify individuals whose waiver is expired or due a reinvestigation. The
   JSTARS system automatically forwards approval forms from the adjudicator to the
   supervisor ensuring completion. JSTARS will also automatically send the forms to the field
   component. JSTARS not onJy assures proper processing of documents, but it stores all files
   electronically.

   Corrective action will be completed by November 30, 2011. See Exhibit I - Contract
   Administration Plan, 7.0 Contract Administration Files; 10.0 Invoices.

   Recommendation 10: Evaluate the time required for the COR to fulfill their
   requirements and ensure enough time is allocated to accomplish all responsibilities.

   DEA concurs with the recommendation. Corrective action will be completed by
   November 30, 2011. The COR is usually supervised by someone other than a CO in the
   field, and their duties as COR are often an ancillary duty. FA will continue to communicate
   the importance of the COR duties to the field and specifically to the Assistant Special
   Agents-in-Charge (ASACs) in charge of the wire rooms and the supervisors of the
   CORffMs so that enough time can be allocated to successfully accomplish all
   responsibilities. The CO will ensure that the Contract Specialist receives checklists/reports
   required under this Contract Administration Plan.

    Documentation detailing DEA's efforts to implement the concurred recommendations noted
in this report is attached. If you have any questions or concerns regarding DEA's response to
the OIG Audit Report recommendations, please contact the Audit Liaison Team at (202) 307-
8200.

Attaclunent (s):

Exhibits:   I. Contract Administration Plan, Exhibit 1 (incl. Attaclunents A-G) dated 10-1 ·2011
            2. Letter and Memorandum from Office of Acquisition and Relocation Management
            (incl. security process flowchart) dated 9-13-2011
            3. Waiver Approval for Language Certification for 14 Linguists dated 9-7-2011
            (incl. backup documentation)




                                             41

                                                                            APPENDIX IV

                   SOSi Response to the Draft Report




December 1, 2011

Response to Audit Report of:
United States Department of Justice
Office of the Inspector General (OIG)
Audit Division
Re: Drug Enforcement Administration Contract # DJDEA-05-C-0020

In response to audit findings pertaining to the referenced contract, SOS International Ltd.
        (SOSi) provides the following information and/or justification for actions.

Contractor Compliance and Contract Requirements
Issue: Monthly Administrative Reports
Finding: “The government requires contractors to produce Monthly Administrative Reports,
even if there are no active task orders, which are to include at a minimum: (1) a financial
statement, (2) personnel status, (3) security packages information, and (4) miscellaneous
comments. We obtained all of the Monthly Administrative Reports available in the contract
file and we found that only the first 5 required reports had been submitted out of an expected
66 over the 5.5 years of the contract. Three of the five reports submitted covered periods
greater than 1 month ranging from 34 to 49 days.

Both the COTR and the SOSi Site Supervisor stated that the Monthly Administrative Reports
were discontinued at the request of the COTR because they were redundant with daily and
weekly discussions with the SOSi Site Supervisor. SOSi management also stated that they
no longer produced the reports because the DEA no longer requested this information.
By failing to produce or provide Monthly Administrative Reports, SOSi has not complied
with one of the terms of the contract, and historical information concerning the performance
of the contractor was not recorded and is therefore not available for future reference. The
COTR did not effectively monitor this requirement of the contract by not ensuring the reports
were completed and maintained in the contract file. Furthermore, both the contractor and the
COTR did not comply with documented procedures for modification of the contract since it
was not approved by the Contracting Officer. We did not find any evidence that the
Contracting Officer was aware the reports had been discontinued.”

Response: SOSi acknowledges the fact that Monthly Administrative Report (MAR) was
discontinued due to the redundancy of information provided in other forms. These reports
were discontinued with the approval of the DEA Dallas COTR. SOSi believes this decision
                                              42
made by the COTR was logical and operationally sound considering the ultimate objective of
the MAR was to keep the COTR abreast of all program related matters. Inasmuch as there
were daily communications between the COTR and SOSi’s on-site management staff an at
least weekly communications with between the COTR and SOSi’s program management
staff regarding all issues normally addressed in the MAR, it was mutually agreed upon that it
was no longer necessary to submit this report. Additionally, our on-site manager kept the
COTR informed of all pivotal SOSi program management decisions, to include any
deficiencies and proposed solutions. Our regular interaction with the COTR ensured she was
continuously aware of actions taken by SOSi regarding personnel and program issues.
Regular meetings dealt with operational issues covering the full spectrum of program
management topics to include:

   •   Task Order Funding
   •   Weekly burn rates
   •   Wires
   •   Staffing
   •   Security
   •   Hours Allocated
   •   Personnel Issues
   •   Agents Concerns
   •   Overall Operational Capability

Given the nature of the regular interactions noted above, the COTR deemed the MAR to be
redundant. SOSi recognizes that once the decision was made by the COTR to discontinue
the submission of monthly reports, it was our responsibility to request that a written
modification be issued by the DEA Office of Acquisition Management supporting the
proposed change. Inasmuch as a modification was not issued, SOSi will be submitting
MARs to the DEA and will maintain and archive historical records of these reports and
documentation of any follow-up actions. Access to all such documentation will be available
to DEA for review via a SOSi File Transfer Protocol (FTP) site set up solely for DEA use.

Issue: Language Proficiency Certifications
Finding: “To evaluate SOSi’s compliance with the language proficiency requirements
established by the contract, we requested proof of language proficiency testing of all linguists
who were assigned to the contract. Upon review of the language proficiency certificates we
determined that 33% of the linguists worked after their certifications had exceeded the 5-year
time limit established by the contract. As a result, SOSi billed the DEA for approximately
$750,304 for linguists without valid language certifications. Additionally, we were unable to
locate any supporting documentation for one individual for which SOSi billed the DEA
approximately $183,840. The total hours worked after certification expiration or without
certification were resulted in a total cost to the DEA of approximately $934,144. Therefore,
we are questioning $934,144 for hours billed for linguists who worked without current
language certification.”

Response: SOSi originally language tested and certified all linguists that were recruited and
subsequently hired to support DEA Dallas Contract No. DJDEA-05-C-0020 and the language
                                              43
certificates were submitted to the DEA. SOSi subsequently received language waivers from
the COTR inasmuch as there were no language issues with any of the linguists supporting the
contract and hence no reason to retest/recertify. SOSi, however, is currently recertifying
active linguists presently supporting the Dallas Field Division as the existing waiver expires
on October 31, 2011.

Contractor Compliance with Quality Control Plan Requirements
Issue: Regular Meetings Between SOSi and the COTR
Finding: “To assure adequate quality control, and to assure reliability and effective contract
performance, the contract requires the contractor to provide a Quality Control Plan that is
incorporated into the contract. We found that SOSi failed to comply with 7 of 12 Quality
Control Plan requirements that we evaluated. For example, SOSi failed to: (1) hold and
document regular meetings with the COTR, and (2) perform worksite inspections.

According to the SOSi Quality Control Plan, the Site Supervisor is expected to meet
regularly with the COTR to discuss issues, obstacles, and problems. Additionally,
Performance Evaluation Meetings are required at least every 6 months during the contract
performance period. The contractor is required to prepare written meeting minutes of all
Performance Evaluation Meetings, to be signed by the COTR. Both the COTR and the Site
Supervisor stated they met daily, weekly, and any other time as deemed necessary; however,
there were no meeting minutes or other records of the discussions or meetings. Therefore,
the contractor and the COTR violated the terms of the contract by not maintaining records of
those meetings. As a result, historical information concerning discussion, decisions, and
other issues was not recorded and therefore is not available for future reference.”

Response: SOSi on-site management personnel held regular meetings with the COTR and
SOSi’s Reston-based program management staff. Depending on the issues, the Reston-based
program manager would conduct at least weekly conference calls with the COTR to ensure
the program requirements were being met. SOSi acknowledges that there is inadequate
documentation of these meetings. SOSi has since implemented and established meeting
records as part of its formal training and operational procedures. Several meeting record
templates were created and disseminated to our on-site managers and supervisory staff with
clear instructions and submittal procedures. See samples below.




                                              44
SOSi will provide the DEA COTR with a courtesy copy of the meeting notes for her
approval. Once approved, the notes will be archived for future reference.

Issue: Contractor Worksite Inspections
Finding: “At least once every 3-6 months, at unscheduled intervals, SOSi was to send a
three-member inspection team to each worksite to review work produced by the SOSi
contract management and administrative staff. The inspections were generally expected to
be completed in 1 week, but would last as long as necessary. SOSi management stated it was
a management decision to not complete these inspections.
SOSi benefitted financially by avoiding the cost of sending an inspection team to Dallas,
Texas. With a three-member team, SOSi saved an average of approximately $1,500 per
person per inspection. The total amount that SOSi saved by not performing the required
inspections is estimated to be at least $45,000 ($1,500 x 3 persons x 10 trips). Since the
contract bid would necessarily factor in the cost of these inspections, we believe SOSi should
reduce the cost of the contract and reimburse the DEA for the $45,000 avoided.”
                                             45
Response: SOSi, in fact, made annual site visits in December of each year of the contract
and met with DEA contract personnel, Agents and SOSi linguists and managers. As with the
regular COTR meetings described above, however, the meetings were not documented. The
cost of these trips was charged to SOSi overhead accounts.

SOSi understands that in a standalone environment the conclusions reached on the potential
cost avoidance for the remaining uncompleted inspection trips may have some validity.
However, reimbursing the DEA for the potential savings of these trips would be
inappropriate and improper for several reasons. The cost of these trips and the home office
management support were not separately priced as a direct cost included in the price
proposed for this contract. The costs would have been borne out of the company’s general
overhead pool of costs that get allocated to all the company’s US government contracts. To
the extent that any potential savings created a benefit in this overhead pool, they have already
been reallocated and redistributed to various other government contracts through the cost
accounting practices recommended and required by the Federal Acquisition Regulations
(FAR). If we are required to reimburse these costs it would have the impact of increasing our
overhead allocated to all other government contracts held by SOSi. It should be noted that
98% of the company’s business is with the US government.

Additionally, if the government is interested making a specific adjustment to our allocated
overhead rate, then we would have to presume that they would be open to including
additional allocable and allowable overhead costs in that assessment. Since the company has
experienced many unanticipated costs during the period of the contract performance, it has
incurred a negative variance in its allocated overhead costs that we did not ask the DEA to
absorb under this contract during the period of performance.

Lastly, we would point out that the rates charged to the DEA were determined under a highly
competitive sealed bid fixed rate proposal process in which SOSi offered the lowest overall
rates available to the government without regards for individual cost elements. We would
also point out that the scope of our proposed effort on which the Inspector General has based
its cost estimates was based on the level of effort outlined in the DEA’s Request for Proposal
(RFP). Since the actual volume of work experienced on the contract was approximately 20%
of the projected level of effort, it did not warrant the full scope of the inspections proposed
for the total projected effort.

In summary, the continuity of local supervision, stability of the workforce and very low
incident rate of errors provided a high level of performance that was proven over several
years mitigating the need for close inspection of the workload. With the lower staff levels,
the SOSi home office program staff was able to monitor the work quality and activities of the
site staff through regular telephone and email interaction. As outlined in the OIG draft report,
SOSi provided the goods and services required by the contract, although documentation of
meetings and administrative actions must be remediated, and all costs billed under the
contract were accurate.




                                              46
                                                                 APPENDIX V

OFFICE OF THE INSPECTOR GENERAL ANALYSIS OF SOSi’s
            RESPONSE TO THE DRAFT REPORT

       The Office of the Inspector General (OIG) provided a draft of this audit
report to SOSi and has identified several issues in SOSi’s response to our
draft report (Appendix IV) that we believe should be specifically addressed.
As a result, we are providing the following comments on SOSi’s response to
the draft report.

      SOSi’s response on page 42 of this report states:

      These reports were discontinued with the approval of the DEA Dallas
      COTR. SOSi believes this decision made by the COTR was logical and
      operationally sound considering the ultimate objective of the MAR was
      to keep the COTR abreast of all program related matters . . . . Regular
      meetings dealt with operational issues covering the full spectrum of
      program management topics . . . . Given the nature of the regular
      interactions noted above, the COTR deemed the MAR to be redundant.

      We disagree with SOSi’s justification for discontinuing the Monthly
Administrative Reports. While we agree the information presented in the
reports may have been redundant to day to day communications, the OIG
does not agree that the ultimate objective of the report was to keep the
COTR aware of all program related matters. The OIG believes the ultimate
objective of the report is to provide documented evidence of meetings and
meeting content, discussions on any problems or issues, decisions made,
financial status, personnel status, and security package information.

       Additionally, neither SOSi nor DEA Dallas were able to provide
documentation of the meetings that are referenced in the response. As a
result, there is virtually no documentation of the activity that occurred under
this contract aside from time and attendance records. Furthermore, SOSi
was still under contractual obligation to produce and maintain those reports
as a matter of record.

      SOSi’s response on page 43-44 of this report states:

      SOSi originally language tested and certified all linguists that were
      recruited and subsequently hired to support DEA Dallas Contract No.
      DJDEA-05-C-0020 and the language certificates were submitted to the
      DEA. SOSi subsequently received language waivers from the COTR
      inasmuch as there were no language issues with any of the linguists
                                      47
     supporting the contract and hence no reason to retest/recertify. SOSi,
     however, is currently recertifying active linguists presently supporting
     the Dallas Field Division as the existing waiver expires on October 31,
     2011.

      The OIG disagrees that SOSi provided proof that all linguists were
tested and certified. As stated in the audit report “. . . we were unable to
locate any supporting documentation for one individual for which SOSi billed
the DEA approximately $183,840.”

      Additionally, there is no evidence of any waiver provided by the COTR
concerning language testing, and in fact, the COTR does not have the
authority to make changes to the contract, as stated in the contract. The
statement that SOSi “received language waivers inasmuch as there were no
language issues with any of the linguists” is an unsupported statement.
SOSi was under contract to provide certified linguists and was thus obligated
to do so unless the Contracting Officer authorized a modification to the
contract, which was not done.

     SOSi’s response on page 46 of this report states:

     SOSi, in fact, made annual site visits in December of each year of the
     contract and met with DEA contract personnel, Agents and SOSi
     linguists and managers. As with the regular COTR meetings described
     above, however, the meetings were not documented. The cost of
     these trips was charged to SOSi overhead accounts.

     SOSi understands that in a standalone environment the conclusions
     reached on the potential cost avoidance for the remaining
     uncompleted inspection trips may have some validity. However,
     reimbursing the DEA for the potential savings of these trips would be
     inappropriate and improper for several reasons. The cost of these trips
     and the home office management support were not separately priced
     as a direct cost included in the price proposed for this contract.

     We would also point out that the scope of our proposed effort on which
     the Inspector General has based its cost estimates was based on the
     level of effort outlined in the DEA’s Request for Proposal (RFP). Since
     the actual volume of work experienced on the contract was
     approximately 20% of the projected level of effort, it did not warrant
     the full scope of the inspections proposed for the total projected effort.

      The OIG’s position is that it is incumbent upon the contractor to
provide evidence of compliance with the contract. The inability to provide


                                     48
trip reports or receipts for the travel supports our conclusion. In the event
SOSi is able to provide documentation that fully supports that the
inspections occurred in accordance with contract requirements, the OIG will
analyze the information and if appropriate close the recommendation
without further action necessary.

       According to the contract, “the guaranteed minimum dollar amount for
this contract was $25,000 in the base year and there was no guaranteed
minimum beyond the base year (i.e., in the option years).” The actual
amount of the contract far exceeded this minimum. Again, the Contracting
Officer is the only one who may modify a contract, and this contract was not
modified to reduce the inspection requirement. SOSi may not unilaterally
alter any condition of the contract; therefore, all trips should have been
made as required by the contract.




                                      49
                                                             APPENDIX VI

             OFFICE OF THE INSPECTOR GENERAL
            ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE REPORT

      The OIG provided a draft of this audit report to the Drug Enforcement
Administration and SOSi. The DEA and SOSi responses are incorporated in
Appendices III and IV respectively of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number:

1.    Resolved. The DEA agreed with our recommendation and the Office
      of Acquisition and Relocation Management (FA), Acquisition
      Management Section (FAC), revised the fiscal year (FY) 2010 version
      of the Linguist Contract Administration Plan to simplify the language
      and streamline the process to ensure contract administration is
      adequately performed by the Contracting Officer Representative
      (COR), Task Monitor (TM), Contract Specialist, and Contracting Officer
      (CO). This recommendation may be closed once the DEA has
      provided the most recently completed monthly reports for the COR,
      TM, and Contract Specialist.

2.    Resolved. The DEA agreed with our recommendation and pursuant
      to the Contract Administration Plan, COR/TMs are directed to establish
      and maintain contract administration documentation including
      Security Access approvals or waivers. Checklists/reports for CORS,
      TMs, and Contract Specialists completed on a monthly basis by the
      first business day of each month and bi-annually in April and October
      include the checklist/report item “Security Access Approvals or
      Waivers are complete and up-to-date” as a regular reminder of the
      duty to keep these approvals current. The Office of Security
      Programs (IS) implemented steps to ensure periodic background
      investigations are tracked and all approvals for access to DEA
      information are complete. IS moved to the DOJ’s Justice Security
      Tracking and Adjudication Record System (JSTARS), which will track
      investigations and identify individuals whose waiver is expired or due
      a reinvestigation. This recommendation may be closed once the DEA
      has provided the most recently completed monthly reports for the
      COR, TM, and Contract Specialist.


                                    50
3.   Resolved. The DEA agreed with our recommendation and pursuant
     to the Contract Administration Plan, COR/TMs are directed to establish
     and maintain contract administration documentation including
     language certifications or waivers. Checklists/reports for CORS, TMs,
     and Contract Specialists completed on a monthly basis by the first
     business day of each month and bi-annually in April and October
     include the checklist/report item “Language proficiency certificates, or
     waivers, received and up-to-date” as a regular reminder of the duty
     to keep these approvals current. With regard to missing or expired
     language certifications and the related questioned costs of $934,144
     for 14 linguists, the contractor requested, and the CO granted,
     waivers on September 7, 2011, for the period May 1, 2005, through
     October 31, 2010, under the contract DJDEA-05-C-0020. In addition,
     the contractor is in the process of certifying all linguists to ensure
     compliance with this contract requirement. As a result of these
     actions, the questioned costs related to this recommendation have
     been addressed. This recommendation may be closed once the DEA
     has provided the most recently completed monthly reports for the
     COR, TM, and Contract Specialist.

4.   Resolved. The DEA agreed with our recommendation. The Quality
     Control (QC) Plan in the audited contract is included in the contract
     file. A copy of the complete contract file including attachments will be
     maintained in the COR/TMs files. Further, the requirements of the QC
     Plan are highlighted in the Contract Administration Plan.
     Checklists/reports for CORS, TMs and Contract Specialists completed
     on a monthly basis by the first business day of each month and bi-
     annually in April and October include the checklist/report item
     “Contractor complied with pre-approved QC plan” in Attachment D,
     and “QC Plan reviewed and updated, and contract modification
     retained in file” in Attachment E, as a regular reminder of the duty to
     keep these approvals current. Checklists Attachments F and G remind
     the COR, TMs, and Contract Specialist to update the QC Plan at least
     annually. Additionally, as related to this recommendation, SOSi’s
     failure to perform on-site inspections in accordance with the Quality
     Control Plan resulted in $45,000 in unused funds that should be put to
     better use.

     This recommendation may be closed once the DEA has provided
     documentation that the on-site inspections were conducted or the
     $45,000 in funds to better use was remedied, and the DEA provides
     the most recently completed monthly reports for the COR, TM, and
     Contract Specialist.



                                    51
5.   Resolved. The DEA agreed with our recommendation and pursuant
     to the Contract Administration Plan, COR/TMs are directed to establish
     and maintain contract administration documentation including
     language certifications or waivers. Checklists/reports for CORS, TMs,
     and Contract Specialists completed on a monthly basis by the first
     business day of each month and bi-annually in April and October
     include the checklist/report item “Language proficiency certificates, or
     waivers, received and up-to-date” as a regular reminder of the duty
     to keep these approvals current. With regard to missing or expired
     language certifications for 14 linguists, the contractor requested, and
     the CO granted, waivers on September 7, 2011, for the period May 1,
     2005, through October 31, 2010, under the contract
     DJDEA-05-C-0020. This recommendation may be closed once the
     DEA has provided the most recently completed monthly reports for
     the COR, TM, and Contract Specialist.

6.   Resolved. The DEA agreed with our recommendation and pursuant
     to the Contract Administration Plan, COR/TMs are directed to meet
     with the contractor monthly and annually and to document the results
     of the required meetings. Checklists/reports for CORS, TMs, and
     Contract Specialists completed on a monthly basis by the first
     business day of each month and bi-annually in April and October
     include the checklist/report item “Contractor met regularly with
     COR/TM to discuss and document performance” as a regular reminder
     of this duty. This recommendation may be closed once the DEA has
     provided the most recently completed monthly reports for the COR,
     TM, and Contract Specialist.

7.   Resolved. The DEA agreed with our recommendation. A new COR
     Program is being issued by the Office of Acquisition and Relocation
     Management, Policy Unit (FAPP), which includes a new COR Handbook
     1st Edition, a full audit and reconfiguration of the Master Active COR
     listing, and introduction of the new Federal Acquisition Institute
     Training System 2.0 by the DEA Acquisition Career Manager. This
     recommendation may be closed once the DEA has provided evidence
     the new COR Program has been implemented and continuous learning
     points are being tracked.

8.   Resolved. The DEA agreed with our recommendation. New
     procedures were implemented requiring Contract Specialists to upload
     approved documents in the Unified Financial Management System
     (UFMS), DEA’s electronic contract writing system, prior to final
     approval to ensure that a signed copy of every document is available
     electronically as well as physically in the Official Contract File. The CO


                                     52
      will ensure the Contract Specialist completes all file documentation
      appropriately prior to final approval. The recommendation may be
      closed once the DEA has provided evidence the documents are being
      uploaded into UFMS and the CO is ensuring file documentation is
      completed.

9.    Closed. The DEA agreed with our recommendation and pursuant to
      the Contract Administration Plan, contract administration files are to
      be maintained by the TM, COR, and Contract Specialist. The Plan
      states that these files are surrendered to the CO at the conclusion of
      the contract and incorporated into the Official Contract File. The
      TM/COR is directed in the Contract Administration Plan to reject any
      invoice that does not include the list of information specified by the
      contract and restated in the Contract Administration Plan for inclusion
      on the invoice.

10.   Closed: The COR is usually supervised by someone other than a CO
      in the field, and their duties as COR are often an ancillary duty. FA
      will continue to communicate the importance of the COR duties to the
      field and specifically to the Assistant Special Agents-in-Charge in
      charge of the wire rooms and the supervisors of the COR/TMs so that
      enough time can be allocated to successfully accomplish all
      responsibilities. The CO will ensure that the Contract Specialist
      receives checklist/reports required under this Contract Administration
      Plan.




                                     53
